<html>
<title> - CRISIS IN EGYPT</title>
<body><pre>[Senate Hearing 113-420]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-420

 
                            CRISIS IN EGYPT
=======================================================================


                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 25, 2013

                               __________

       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/




                  U.S. GOVERNMENT PRINTING OFFICE
90-798                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                              (ii)        




                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator from Tennessee, opening statement.     2
Dunne, Dr. Michele, vice president for the Atlantic Council and 
  director of the Rafik Hariri Center for the Middle East, 
  Atlantic Council, Washington, DC...............................     9
    Prepared statement...........................................    11
Kurtzer, Hon. Daniel C., S. Daniel Abraham professor in Middle 
  Eastern policy studies, Woodrow Wilson School of Public and 
  International Affairs, Princeton University, Princeton, NJ.....    13
    Prepared statement...........................................    15
Menendez, Hon. Robert, U.S. Senator from New Jersey, opening 
  statement......................................................     1
Ross, Hon. Dennis, counselor, The Washington Institute for New 
  East Policy, Washington, DC....................................     3
    Prepared statement...........................................     6

                                 (iii)


                            CRISIS IN EGYPT

                              ----------                              


                        THURSDAY, JULY 25, 2013

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:34 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez (chairman of the committee) presiding.
    Present: Senators Menendez, Boxer, Cardin, Shaheen, Murphy, 
Kaine, Markey, Corker, Rubio, Johnson, Flake, McCain, and Paul.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. This hearing of the Senate Foreign Relations 
Committee will come to order.
    Thank you for joining us today for a timely hearing on the 
unfolding circumstances in Egypt.
    I want to thank Ambassador Dennis Ross and Dr. Michele 
Dunne and Ambassador Daniel Kurtzer for being here today. We 
look forward to their perspective on the situation in Egypt and 
its ramifications for the region and for the United States.
    The situation in Egypt has tremendous implications for the 
region and for the United States. Our response and our policy 
must be carefully calibrated to press for the Democratic 
reforms that have been demanded by the Egyptian people and at 
the same time support United States national security interests 
in the region.
    These two goals are, in my view, not at odds with one 
another, but do require a complex policy response that allows 
us to advocate for much-needed democratic reforms, while also 
ensuring our own security needs.
    At the end of the day, our policy and our laws must be 
nuanced enough to allow for a response that reflects our 
interests. And it is my view that terminating United States 
assistance at this time could provoke a further crisis in Egypt 
that would not be to our benefit.
    Having said that, the future of our relationship with Egypt 
to a greater extent will be determined by our actions in the 
coming weeks, whether we will have a stable and willing partner 
on crucial matters of security, combating terrorism, 
trafficking of weapons and people into the Sinai, support for 
peace in the Middle East is up to us both.
    Alternatively, we can stand aside during this crisis and 
just hope for the best. While our choices are difficult, at 
this time, in my view, abandoning Egypt would be a particularly 
poor policy choice.
    But whatever policy we ultimately choose during this period 
of upheaval in Egypt, it is critical that all parties exercise 
restraint, that protests remain peaceful, and that violence is 
rejected.
    The interim government should take those concerns to heart 
and, above all, ensure that the restoration of democracy be as 
transparent and inclusive as possible.
    Steps that exacerbate the divide in Egyptian society, 
including the use of force against protesters, and arrests and 
harassment of pro-Morsi and of Muslim Brotherhood leaders serve 
only to deepen the chasm and forestall reconciliation.
    The only way forward to a pluralistic, vibrant, and stable 
democracy lies in the inclusion of all political parties and 
groups.
    Let me be clear, our support is not unconditional and 
unending. At the end of the day, Egyptian leaders and the 
Egyptian military must show that they are committed to an 
inclusive political process, credible democratic elections, and 
democratic governance that protects the rights of religious 
minorities and women.
    On that subject, I am deeply concerned about the treatment 
of Coptic Christians, women, and Syrian refugees in a 
destabilized Egypt. The military and police forces must assure 
the safety of Egypt's minority groups, which means preventing 
the beating and killing of Christians and sexual assaults on 
women.
    I am also disturbed by reports of Egypt turning its back on 
refugees fleeing the ever-worsening conflict in Syria. Egypt's 
military and interim government should provide safe haven for 
innocent civilians fleeing the brutality of the Assad regime.
    I also hope that Egypt's security forces will be vigilant 
in the increasingly violent Sinai, where innocent Egyptians 
have been killed and terrorist groups have launched attacks 
against Israel.
    Finally, Egypt's Government must quickly overturn the 
recent convictions of 43 NGO workers. Those sentences were a 
travesty of justice and must not stand. Their work to support 
the emergence of a strong pluralistic democracy is needed now 
more than ever.
    I am hopeful that our panelists will leave us with a better 
understanding of the situation, the prospects for a peaceful, 
democratic resolution, and the choices that lie before us.
    And with that, let me recognize our ranking member, Senator 
Corker.

                 STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Thank you, Mr. Chairman. And I, too, want 
to welcome our witnesses. And given the dramatic changes that 
have occurred in Egypt since Mubarak's ouster over the last 2 
years, I think it is critical that we take a look, take time to 
discuss our relationship.
    I think sometimes we forget that we have critical national 
security interests in Egypt. It is the most populous country in 
the Middle East, a strategic ally, the recipient of more than 
$1 billion in U.S. taxpayer money, provides U.S. military 
vessels preferred access to the Suez Canal, and our two 
countries cooperative on counterterrorism.
    So obviously, our policy right now is in a bit of a 
quandary. We are trying to decide how we move ahead with Egypt, 
how the issue of the coup affects, whether it was or was not, 
how it affects our policies going forward.
    So I really do appreciate the witnesses coming in, giving 
us time to think with you as to how we move ahead with our 
policy, knowing the quandaries that we face in this 
relationship, but at the same time understanding the importance 
of Egypt as a strategic ally and, candidly, a very important 
entity in the region that we want to see stability prevail in.
    So, Mr. Chairman, I thank you for having this hearing.
    I thank you as witnesses, and I look forward to your 
testimony.
    The Chairman. Thank you, Senator Corker.
    With that, let me turn to our witnesses.
    I am pleased to introduce Ambassador Dennis Ross, whose 
reputation and experience as a diplomat, Presidential advisor, 
and author made him one of the Nation's most respected foreign-
policy minds on both sides of the aisle.
    So welcome, Ambassador, back to the committee.
    We also have with us Dr. Michele Dunne, vice president for 
the Atlantic Council and director of the Rafik Hariri Center 
for the Middle East. Dr. Dunne has served on the National 
Security Council staff in policy and planning, and the Bureau 
of Intelligence and Research at the State Department and as a 
diplomat in Cairo and Jerusalem.
    Ambassador Daniel Kurtzer, now the S. Daniel Abraham 
Professor in Middle Eastern Policy Studies at the Woodrow 
Wilson School at Princeton, a great institution of the State of 
New Jersey and the Nation, served in the Foreign Service for 
almost three decades, and retired in 2005 with the rank of 
Career Minister and has been Ambassador in both Israel and 
Egypt.
    Thank you all for being here. Your full statements will be 
entered into the record without objection. We ask you to 
summarize your statements in about 5 minutes or so, so that we 
can have a dialogue with you.
    And with that, Ambassador Ross, if you will start.

   STATEMENT OF HON. DENNIS ROSS, COUNSELOR, THE WASHINGTON 
         INSTITUTE FOR NEAR EAST POLICY, WASHINGTON, DC

    Ambassador Ross. Thank you, Mr. Chairman. It is good to be 
here again.
    The last time I was here, I was here to talk about Syria 
and the civil war there. And there is no question that both our 
morals and our strategic interests are engaged there. I would 
say when we talk about Egypt, though, the response is very 
different, the stakes are also very high, and our values and 
our interests are engaged there as well.
    I find myself very much in agreement with what you were 
saying in your statement. When we look at Egypt, we know that 
Egypt is perhaps the most important Arab country. It has always 
been one that affects the rest of the region. Politically, 
culturally, it has been a trendsetter.
    When we looked that the events of the Arab Awakening, they 
may well have begun in Tunisia, but it was the events in Tahrir 
Square that captured the imagination of the region and the 
world. And I think once again, we are looking at events on the 
Egyptian street that are capturing everyone's attention. And it 
is a very unsettling situation, to say the least.
    At a minimum, we have seen an elected leader removed. But I 
think when we look at this elected leader who was removed, we 
also have to understand that the intervention by the military 
was an intervention that was very much backed by a very large 
segment of the Egyptian population.
    A critical mass of Egyptians feel that this leadership 
under President Morsi and the Muslim Brotherhood was a 
leadership that was not only not addressing Egypt's problems, 
it was more concerned with control than it was with governance. 
And while one can dispute the actual numbers that were on the 
petitions, and one can question how many people may have been 
on the street, there is no question that a very significant 
percentage of Egyptians reacted. And in many ways, one could 
describe what took place on June 30 and the events afterward as 
a popular uprising.
    And the military used that popular uprising to remove 
President Morsi, but the reality is that today there is a good 
deal of support for what the military has done.
    There are those within Egypt, there are those within the 
rest of the region, who would view what has taken place in 
Egypt as a course correction. And that helps to explain why you 
look at the Saudis and the Emirates and the Kuwaitis having 
pledged 12 billion dollars' worth of assistance, and obviously 
already beginning to act on that.
    So there is one narrative that describes this very much as 
a kind of course correction of popular uprising. And there is 
obviously a different narrative. And that different narrative 
comes from the Muslim Brotherhood and the backers of President 
Morsi, who see what was a legitimately elected government 
replaced in what they see as an illegitimate way. And they have 
made it very clear that they demand the reinstatement of 
President Morsi. And they make it clear that they will not 
allow things to remain as they are, and they will continue to 
try to disrupt life within Egypt unless he is reinstated.
    We have what can only be described as a depolarization 
within Egypt today. And while there may be rumors that there 
are efforts to mediate the differences, it is very difficult to 
see how those differences, at this point, are likely to be 
mediated.
    I think that we are bound to see this polarization continue 
for some time. It is going to confront us, I think, with 
difficult dilemmas. I think we can look at the new interim 
government, which has many figures on it who are credible. For 
sure we look at Beblawi and a number of others. They are 
certainly very credible figures. But I think, at the same time, 
we have to recognize that the arbiter of events today are the 
military.
    The first Deputy Prime Minister is General El-Sisi. You 
look at the speech he made yesterday in terms of calling on 
Egyptians to come out and support their efforts against 
terrorism, which is really another way of talking about their 
efforts against the Muslim Brotherhood, we are in for what is 
going to be, I think, a prolonged period of instability.
    And we have big stakes in Egypt, as you were describing, so 
I think the real question for us becomes, what do we do now? 
And it is not as simple. Obviously, it is not a simple answer.
    There are those who say that the right answer is for us to 
cut off assistance. I am not one of those. It is not because I 
do not understand the rationale behind doing that. It is not 
that I do not understand the arguments that are made. The 
notion that it was a coup, that we have laws, that we have 
principles, that we have to be credible to our principles, I 
take all this very seriously.
    But I also take seriously the reality that the military's 
actions were supported by a significant percentage of the 
Egyptian population. And I also take seriously the need for us 
to maintain influence in the current situation.
    I am afraid that if we were to cut off our assistance at 
this point, the effect of that would be that we would lose the 
link we have with the military. But we would also find a 
backlash among the Egyptian public.
    The Egyptian public would look at this as an American 
effort. A critical mass of the Egyptian public would look at 
this as an American effort to dictate to them against the 
popular will. They would not take seriously our calls or 
statements that this is simply our law and these are our 
principles.
    We would also find it would not have much resonance in the 
rest of the region. Most of the rest of the region, I think, is 
preoccupied with what is going on in Syria, and they do not see 
us there acting on the basis of our principles.
    We would also see, I think, the Saudis and the Emirates and 
others very quick to fill in and take the place of our 
assistance beyond what they have already done.
    And so I am concerned that basically the net effect of this 
would be that we would not have influence at a time when it is 
very much in our interest to try to affect what is going to 
happen.
    I would not overstate the degree of our leverage, but I 
think it is critical for us to be prepared to use the leverage 
that we have.
    And the military clearly wants us to maintain the 
relationship, for practical reasons. They also want it for 
symbolic reasons, because if we cut off assistance, it 
basically reinforces the narrative that the Muslim Brotherhood 
has put out there, and it will make it more difficult for the 
interim government, for the military, to get assistance from 
outside the region.
    So the key for me is to use our leverage--not to be 
reluctant to use our leverage--and to use it for a variety of 
purposes. I ticked off a series in my testimony, but I would 
identify what I consider to be the most important.
    I think, A, we should be using it to ensure that the 
military really does go back to the barracks, to ensure that 
the interim government is empowered to make real decisions.
    And along those lines, I think they should be working with 
the IMF, because the signal that sends, and finalize the 
standby agreement. I think there should be inclusiveness.
    I think it should be a transparent political process. I 
think there should be international monitors who would be 
invited in to observe the elections, to demonstrate that these 
will be free and fair, even if it means that the timing should 
reflect the need for preparation for those elections.
    I think, as well, there should be, the point you made 
about, I would say, pardoning the 43 NGOs who were arrested for 
violating Egyptian laws, I think that, in fact, they should be 
pardoned. I think one of the most important things we could do 
and the signal it would send about what Egypt's real posture is 
with regard to building a civil society, which is the key to 
having a level playing field and building the basis for free 
and fair elections, and creating the political space for 
political pluralism, we should use our leverage for those 
purposes and for allowing the Muslim Brotherhood to be included 
within elections as well. If they choose not to take part, let 
that be their decision.
    The bottom line of what I am suggesting is, without having 
illusions about how much leverage we have, recognizing the 
limits of what they may be, we should not take ourselves out of 
the game right now. We should not be a bystander. We should not 
simply make a statement for the sake of making a statement. We 
should try to exercise the influence that we have, to shape the 
direction that Egypt takes.
    We have a huge stake in how Egypt evolves. And I think, 
ultimately, we should exercise that leverage.
    Understand the following, if, in fact, we find that we are 
not listened to, we can always cut off assistance later. I do 
not object to the use of assistance. I do not object to the 
idea that, in fact, we should be prepared to cut it off if we 
find that there is not responsiveness to the points and that 
principles that we are pushing. But if we were to do it at this 
point, I think that unfortunately we will no longer have an 
effect on what happens in Egypt.
    And given our stakes, I do not think at this point we 
should cut ourselves off.
    Thank you.
    [The prepared statement of Ambassador Ross follows:]

                 Prepared Statement of Hon. Dennis Ross

    Good morning Chairman Menendez, Ranking Member Corker, and 
distinguished committee members. I am pleased to appear before the 
committee again. The last time I appeared was to address Syria and the 
challenges of the civil war--challenges that affect our interests 
morally and strategically. Today, I am here to talk about the recent 
events in Egypt. While the nature of the challenge and our choices for 
responding are fundamentally different, there should be no mistaking 
that both our values and strategic interests are also very much at 
stake.
    Egypt is the largest Arab country; historically, its influence has 
been felt politically and culturally throughout the region. It has 
often been the trendsetter or bellwether, and today its direction is 
sure to affect the shape of the Middle East.
    The Arab Awakening may have begun in Tunisia, but it was Tahrir 
Square that captured the imagination of the region and much of the 
world. And it is again the events in Tahrir Square and elsewhere on 
Egyptian streets that a new, unsettling reality in Egypt is being 
created. A democratically elected leader was removed and is now under 
arrest. In Egypt itself, however, a majority seem to feel that this was 
the only possible option open to the Egyptian public. They saw a leader 
and his Muslim Brotherhood backers incapable of dealing with Egypt's 
problems and more focused on control than governance.
    Though the claims may vary on how many people turned out on the 
streets of Cairo--with some estimates ranging as high as 13 to 14 
million people--there is no disputing the fact that massive, 
unprecedented numbers of Egyptians demonstrated and called for the 
removal of a leadership that they saw leading their country to ruin. 
Many who had voted for President Morsi felt betrayed by his leadership 
that they saw as exclusionary, authoritarian, intolerant, and 
incompetent. The numbers that responded to the Tamarod (rebellion) 
petitions on recall, as well as to the call for demonstrations on June 
30 to demand that Mohammad Morsi step down, are simply staggering. A 
critical mass of Egyptians signed the petitions and the opposition 
embodied all classes and walks of life. No doubt the economic 
breakdown, the rise in prices, electricity black and brown outs, the 
gas and breadlines, the absence of law and order--and the seeming 
indifference and inability of the Morsi-led government to address these 
daily problems of life--triggered much of the opposition.
    It is not an exaggeration to describe what happened on June 30 as a 
popular uprising against the Morsi-led government--a popular revolt 
that the military used to remove the Egyptian President and crack down 
on the leadership of the Muslim Brotherhood. For many in the Middle 
East, this second Egyptian revolution constitutes an important course 
correction. Certainly, that explains why Saudi Arabia, the UAE, and 
Kuwait have pledged over $12 billion of assistance to Egypt, and they 
have already begun delivering on that assistance.
    Others challenge this narrative of a popular uprising that 
triggered military intervention and the replacement of the Morsi-led, 
Muslim Brotherhood dominated government. They see not a course 
correction, but a democratically elected government removed by the 
Egyptian military. This is certainly the argument of the Muslim 
Brotherhood and their supporters in Egypt, and they hope to gain 
international support for their demand that Morsi be reinstated. They 
say they will not rest until he is reinstated and threaten to disrupt 
life in Egypt until this happens.
    The United States is not the central player in the drama that is 
being played out in Egypt today. But we are also not a bystander. For 
understandable reasons, we must be deeply troubled when a 
democratically elected leader is removed not at the ballot box but by 
the military. In addition, it is hard to escape the reality that Egypt 
today is deeply polarized between those who support the removal of the 
Morsi-led government and those who oppose what they call a coup and the 
new interim civilian government that has now been appointed. The 
prospect of bridging this divide in the near term is very small. Though 
there are rumors of mediation efforts between the Brotherhood and the 
military or those in the new interim government, it is hard to see an 
agreement any time soon. The Brotherhood insists on Morsi's 
reinstatement and the military absolutely rejects such a possibility.
    Some hold out hope that a compromise may yet be possible; one in 
which Morsi would be reinstated for a brief symbolic time, would then 
step down in favor of a technocratic interim government, and new 
elections would then take place for President. In an atmosphere in 
which there were both bridge builders and a readiness on the part of 
the main protagonists--the military and the Brotherhood--to reach a 
compromise, it might be possible. But such an environment does not 
exist today and is not going to exist any time soon.
    Instead, the military and security forces have cracked down on the 
leaders of the Brotherhood, arrested hundreds of their followers, and 
closed down their media outlets--and they have done so with support and 
applause from much of the Egyptian public, including from many, but not 
all, liberal voices. In addition, a new civilian interim government has 
been named with no Islamists in it. Moreover, 11 of the 34 members of 
the new Cabinet served as ministers under Mubarak. The polarization is 
real. As much as we might inveigh against it, we should have no 
illusions that it is a temporary phenomenon.
    The Muslim Brotherhood may speak of a coup and of democracy 
cheated. But in power, the Brotherhood did not act democratically. By 
appointing primarily members of the Brotherhood to key positions, 
issuing decrees to deny judicial oversight, pushing a law to remove 
3,000 judges, drafting a constitution only with Islamists, rushing 
through a referendum on that constitution, using its thugs to brutalize 
protestors outside the Presidential Palace, prosecuting those who 
insulted the President, and failing to address a collapsing economy, 
the Brotherhood alienated a majority of the Egyptian public. This is 
not just the ``deep state'' reacting. This is not just a return of the 
``feloul''--or Mubarak apparatchiks--resuming control.
    The interim Cabinet led by Prime Minister Hazam El-Beblawi has a 
number of highly credible figures in it who don't represent the so-
called deep state. Beblawi, himself, is a well-respected economist. 
Similarly, two of the Deputy Prime Ministers, Hossam Eissa and Ziad 
Bahaa El-Din, are genuine liberals, one a cofounder of the Constitution 
Party and the other a founding member of the Social Democratic Party. 
The Minister of Finance, Ahmed Galal, spent 18 years at the World 
Bank--and there are others whose background and experience qualify them 
as genuine technocrats. But, as noted above, there are also those who 
were part of the era of Mubarak governance. And General El-Sisi is not 
only the Defense Minister and Commander of the Military, he is also one 
of the Deputy Prime Ministers--something that adds to the suspicion 
that the military, for all its talk of not wanting to govern, is the 
force behind all decisionmaking.
    At this point, there can be little doubt that the military is the 
key arbiter of events in Egypt. The question for us is what to do now. 
The last thing the United States wants to see is for Egypt to become a 
failed or failing state. Certainly, we would like to see Egypt proceed 
on a path that promotes a representative, inclusive, tolerant 
government that tackles its problems and respects minority and women's 
rights and fulfills its international obligations, including its peace 
treaty with Israel. The challenge for us is to adopt policies, 
recognizing the limits of our influence, that still offer more of a 
chance to see Egypt move in that direction.
    Some argue that we should cut off assistance to Egypt. They say 
there was a coup; our law requires a cutoff; our principles demand it; 
and for the sake of consistency and credibility we should act 
accordingly. I respect this position but disagree with it. I don't do 
so easily. But I do so because I fear, at least at this juncture, that 
cutting off assistance would mean losing whatever leverage and 
influence we might be able to employ in Egypt today. Presently, the 
military is the most important actor in Egypt, and we must take into 
account that it has extensive public support.
    The moment we cut off assistance, we not only will trigger a 
backlash from the military but also from a wide segment of the Egyptian 
public. We will be seen as trying to dictate to Egypt against the will 
of the people. Our claims of simply following our laws and our 
principles may ring true here but will not in Egypt. Nor will they have 
much resonance elsewhere in the region where the preoccupation remains 
largely centered on Syria and where the widely held perception is that 
America's principles don't seem to be guiding us there.
    Furthermore, we should have no illusions: the Saudis and Emirates 
will be quick to fill in for lost American assistance at least in the 
near term. And while we may be focused on getting the Egyptian military 
and its new civilian government to exercise restraint and to be 
inclusive, the Saudis and Emirates will urge just the opposite. They 
see the Muslim Brotherhood and the rise of political Islam as a mortal 
threat and believe they must be suppressed--not included or treated as 
legitimate political participants.
    In arguing against a cutoff of assistance, I am, at the same time, 
also arguing that we must use our leverage. Without exaggerating our 
leverage, it is fair to say we have some. The Egyptian military surely 
does not want us to cut our assistance in part because they have become 
dependent on U.S. weapons and a broad support structure--something that 
is in our mutual interests. But beyond wanting to avoid the practical 
consequences of seeing pipelines potentially cut and material supplies 
put on hold, the military also does not want us to lend credence to the 
Brotherhood's narrative of a coup. That would surely hurt Egypt's 
standing internationally--making meaningful assistance from others 
outside of the region far more difficult to obtain.
    The real issue, therefore, is how to try to use our leverage and to 
what ends. Here I would focus on:

  <bullet> Trying to get the military to truly go back to the barracks;
  <bullet> Acting with restraint and minimizing their own use of 
        violence;
  <bullet> Ensuring that the interim government is empowered to make 
        decisions and deal with real problems--and that means as an 
        example not deferring discussions with the IMF but actually 
        concluding them;
  <bullet> Having the transition process be transparent;
  <bullet> Emphasizing that only those who advocate violence would be 
        excluded from the political process and elections;
  <bullet> Committing to having international monitors come in to 
        observe the elections, even if that requires less haste and 
        more preparation for those elections;
  <bullet> And, last, demonstrating a clear commitment to building 
        civil society and its 
        institutions.

    This last point is critical. One of the clearest signs that the 
military and the interim government are serious about building a fair 
and open society and advancing the cause of representative government 
would be to pardon those representatives of those civil society groups 
who were found guilty of violating Egyptian laws. The military and 
interim government should act to revoke those laws and support the 
drafting of new ones that would permit NGOs to operate freely and 
effectively with financial support from inside and outside. If there 
are to be repeatable elections that are fairly contested and more 
likely to be respected--and a real space opened up for political 
pluralism--Egypt must build the institutions of civil society. We 
should use our leverage to press for this.
    We should also press to permit the Muslim Brotherhood to 
participate in elections--assuming they are not encouraging their 
supporters to engage in violence. If they choose not to participate, 
let that be their decision.
    None of this will happen easily, and there are no guarantees that 
even if we seek to use our leverage we will succeed. But cutting off 
the assistance now won't end up serving our interests or our values. 
Egypt's political future is bound to be messy and to move in fits and 
starts. We should try to use our leverage quietly for now, but there 
should be no doubt on the part of the military and the interim 
government that we will become more vocal and if there is no 
responsiveness, we will be prepared to cut off assistance.
    I don't reject cutting off assistance or reshaping it in principle. 
I reject it now because I think it will backfire and not serve our 
hopes and aims for how Egypt should evolve. Our stakes in Egypt remain 
high. It makes sense for us to stay in the game and try to affect 
Egypt's course, and not make a statement that will render us largely 
irrelevant as Egyptians shape an uncertain future.

    The Chairman. Thank you.
    Dr. Dunne.

STATEMENT OF DR. MICHELE DUNNE, VICE PRESIDENT FOR THE ATLANTIC 
COUNCIL AND DIRECTOR OF THE RAFIK HARIRI CENTER FOR THE MIDDLE 
             EAST, ATLANTIC COUNCIL, WASHINGTON, DC

    Dr. Dunne. Thank you, Chairman Menendez, Ranking Member 
Corker, and members of the committee. Thanks for the honor of 
testifying before this committee about the crisis in Egypt.
    As we look at the political turmoil in Egypt and try to 
sort out United States policy options, I would like to raise 
for your consideration four points.
    The first point is that the July 3 removal of Muslim 
Brotherhood President Mohamed Morsi by military coup, following 
enormous demonstrations, should not be understood primarily as 
a triumph of secularism over Islamism, because along with 
secularists and Islamists in Egypt, there is another major 
party, a third major player, which is the Egyptian State 
itself, which was left largely intact after the removal of 
former President Mubarak in February 2011.
    So in the period after Mubarak ouster, the military, which 
is the most powerful player within the state, worked with 
Islamists and against the secularists. Now military, as well as 
other state institutions that have been on the defensive since 
the 2011 revolution, have aligned with the secular parties 
against the Brotherhood.
    So we have to understand that the state is a major player 
here, and this new alignment may not be any more stable or 
lasting than the last one was.
    It is also important to recognize that this current 
alliance between the military and other parts of the state with 
the secular opposition is anti-Brotherhood, but it is not anti-
Islamist. The Salafi al-Nour Party supported the removal of 
Morsi and has already exerted its influence in the new 
transition by vetoing Cabinet choices and getting its preferred 
language on the Islamic sharia into the temporary constitution.
    My second point is that we should really reserve judgment 
for now as to whether the removal of Morsi will put Egypt back 
on a path toward democracy or not. There are contradictory 
signs.
    Now on the positive side of the ledger, the military is not 
exerting control directly, but has put civilians out front, 
unlike the first time they took control after Mubarak. And they 
put in place a Cabinet, as Ambassador Ross mentioned, of 
respected figures.
    In addition to that, I would say another positive sign is 
that the new transition roadmap puts the rewriting of the 
constitution before the holding of new parliamentary and 
Presidential elections. And this does correct a flaw in the 
first transition, because the fact that they held elections 
before writing the new constitution the first time allowed the 
winners--that was the Brotherhood--to dominate the process and 
exclude others.
    But on the negative side of the ledger, the way in which 
democratic process was cast aside on July 3 is troubling. Morsi 
was a failure as a President, and he behaved as though winning 
52 percent of the vote gave him a mandate to rule as a pharaoh. 
And the broad public opposition to his leadership was real. But 
it would have been much more powerful and salutary for Egypt's 
young democracy if Morsi had been defeated in an early election 
or referendum.
    There were some efforts made to persuade Morsi to accept 
this, but they were very, very brief, and then very quickly, 
the military moved to remove him in this way, in a way in which 
I think sets a dangerous precedent.
    In addition to this, the new transition going on in Egypt 
is in danger of repeating the single most important mistake of 
the first transition, which was the failure to build a broad 
consensus and a tendency to exclude critical players. The 
secularists were excluded before. The Brotherhood is the being 
excluded now.
    While Egyptian officials are speaking the language of 
inclusion, reconciliation, and dialogue, their actions are 
saying the opposite. As we know, President Morsi and a couple 
dozen other senior leaders of the Brotherhood are detained 
incommunicado without charge. There are rumors surfacing daily 
that they may be charged with some very serious offenses, such 
as treason or terrorism.
    And there are lots of other signs, too, that the intention 
is to exclude the Brotherhood, perhaps outlaw it again, and so 
forth.
    So there is a real contradiction here between the talk 
about inclusion and the actions that the government is taking.
    My third point is, despite the military's argument that it 
took this action to remove Morsi in order to spare the country 
a civil war, Egypt, in fact, seems to be headed into a period 
of greater instability and that perhaps a cycle of instability.
    There has already been a troubling spike in violence, more 
than 160 people killed and 1,400 injured in just the first 
couple of weeks; daily clashes between pro- and anti-Morsi 
groups throughout the country, and of course Egypt is a much 
more heavily armed country than it was a couple years ago; and 
a spike in jihad attacks against the military and police 
officers in the Sinai and also now in other parts of Egypt.
    Egypt could easily, in this situation, see a return to the 
type of insurgency and domestic terrorism it experienced in the 
1990s when jihadis targeted government officials, Christians, 
tourists, and liberals.
    If there is this kind of ongoing violence, it will not be 
possible to attract tourists and investment back to Egypt, and 
all the good intentions to now rebuild the economy, and all the 
money, even, coming into the central bank from gulf donors and 
so forth, will not work to revitalize the economy, if the 
security situation continues to deteriorate.
    And the call yesterday by Deputy Prime Minister El-Sisi, 
the Defense Minister, for massive demonstrations tomorrow in 
order to provide him, he said, a mandate to crack down on 
terrorism I think risks escalating the situation and the 
violence further.
    My fourth point is this, in light of all these many 
dangers, the United States should proceed with caution and be 
guided by some basic principles.
    Egypt can only be a reliable security partner for the 
United States and a reliable peace partner for Israel if it is 
reasonably stable. And it will only become stable once it 
develops a governing system that answers strong and persistent 
popular demands for responsiveness, accountability, fairness, 
and respect for citizens' right.
    So we are going to have to look at the signs in the coming 
weeks about whether there really will be inclusiveness or 
whether this campaign of excluding the Brotherhood will 
escalate. Will there be things like media freedom, civil 
society, freedom? Ambassador Ross mentioned this very important 
case against 43 NGO workers, including 16 Americans who have 
been convicted and sentenced to prison for NGO work in Egypt. 
So we are going to have to look at these signs.
    During this time, the United States should take this time 
to pause, suspend military deliveries and assistance in 
accordance with our law, and review our policy toward Egypt and 
our assistance to Egypt, including special privileges that 
Egypt receives, such as cash flow financing for foreign 
military financing.
    The United States should carry out its own internal review 
as well as a dialogue with Egyptians inside and outside the 
Egyptian Government with the stated intention of resuming 
assistance as soon as the country is clearly back on a 
democratic path.
    In the meantime, we really should do a review of the kind 
of military and economic assistance we offer Egypt, which 
should not be kept on autopilot, but rather updated in order to 
provide the kind of assistance, when it is resumed, that is 
truly suitable to promoting a stable, prosperous, democratic 
Egypt that plays a vital and responsible role in the Middle 
East.
    The United States is understandably wary of damaging its 
longstanding relationship with the Egyptian Government. But it 
should also avoid pursuing a policy that appears to be cynical 
and unprincipled.
    We should not make the mistake of concluding that the 
United States no longer has any influence in Egypt. In fact, 
the fact that Egyptians pay such close attention to what our 
officials say, and have been very critical of our policy, 
means, actually, that we still have quite a lot of influence to 
exert.
    Thank you.
    [The prepared statement of Dr. Dunne follows:]

                 Prepared Statementof Dr. Michele Dunne

    Chairman Menendez, Ranking Member Corker, members of the committee, 
thank you for the honor of testifying before this committee about the 
crisis in Egypt. As we analyze the political turmoil in Egypt and try 
to sort out U.S. policy options, I would like to raise four points for 
your consideration.
    First, the July 3 removal of Muslim Brotherhood President Mohammed 
Morsi by military coup following enormous demonstrations should not be 
understood primarily as a triumph of secularism over Islamism. Along 
with secularists and Islamists, there is a third major player in 
Egyptian politics: the state itself, which was left largely intact 
after the removal of former President Hosni Mubarak in February 2011. 
In the period after Mubarak's ouster, the military (the most powerful 
player within the state) worked with the Islamists and against the 
secular opposition. Now the military, as well as other state 
institutions that were on the defense after the 2011 revolution, have 
allied with the secular parties against the Brotherhood. So what has 
happened is in part a reassertion of the Mubarak era state, a sort of 
counterrevolution.
    In addition, it is important to recognize that the current state-
secularist alliance is anti-Brotherhood but not necessarily anti-
Islamist. The Salafi Nour Party supported the removal of Morsi and has 
already exerted its influence by vetoing cabinet choices and getting 
its preferred wording on the status of Islamic sharia into the 
temporary constitution.
    Second, the United States should reserve judgment for now as to 
whether the removal of Morsi will put Egypt back on a path toward 
democracy or not. It is too soon to tell and the signs are 
contradictory. On the positive side of the ledger, the military is not 
exerting control directly but rather has put civilians out front, 
including a President from the judiciary and a Cabinet including 
respected technocrats and well known secular political figures. The 
Cabinet is particularly well placed to address the economy, which is in 
dire straits. And the new transition roadmap puts the rewriting of the 
constitution before the holding of new parliamentary and Presidential 
elections. This corrects a major flaw of the first transition in which 
constitution-writing followed elections, allowing the winners to 
dominate the process and exclude the losers.
    On the negative side of the ledger, the way in which the democratic 
process was cast aside on July 3 is troubling. Morsi was a failure as a 
President, who behaved as though winning 52 percent of the vote gave 
him a mandate to rule as a pharaoh. The broad public opposition to his 
leadership was real, seen in the millions who signed a petition for 
early elections and poured into the streets on June 30. But it would 
have been much more powerful and salutary for Egypt's young democracy 
if Morsi had been defeated in an early election or referendum; instead, 
his removal from office by the military shortly after protests began 
sets a dangerous precedent. Instead of learning the lesson that 
ineffective and undemocratic governance brings a comeuppance at the 
ballot box, the Brotherhood and others Islamists have learned that 
playing the democratic game by the rules does not pay off.
    In addition, the new transition is in danger of repeating the most 
important mistake of the earlier post-Mubarak stage, which was a 
failure to build a broad consensus because critical players were 
excluded from important decisions. Before the July 3 removal of Morsi 
it was the secular liberals and leftists who were excluded; now it is 
the Muslim Brotherhood. Egypt is moving into a period in which one of 
the most deeply rooted movements in the country's political life might 
be excluded, perhaps severely repressed or at a minimum strongly 
disadvantaged, just as the secularists were until recently.
    While Egyptian officials are speaking the language of inclusion and 
reconciliation, their actions toward the Muslim Brotherhood are saying 
the opposite. In addition to Mohammed Morsi, an undisclosed number--
perhaps two dozen--of senior leaders of the Brotherhood and its Freedom 
and Justice Party are detained incommunicado without charge, with new 
rumors surfacing daily about serious crimes with which they might be 
charged, including treason. They have been banned from travel and their 
assets seized. The Brotherhood-dominated upper House of Parliament has 
been dissolved, and the new transition government is busy expunging 
Brotherhood appointees from bodies such as the Supreme Press Council 
and National Council for Human Rights. And there is talk of outlawing 
the Brotherhood itself, which only recently gained license as a 
nongovernmental organization.
    Third, despite the military's argument that it spared the country a 
civil war, Egypt might well be headed into greater instability. The new 
transition might once again produce a constitution and elected bodies 
that a significant part of the population considers illegitimate, 
leading to repeated political breakdowns, resets, and military 
intervention in politics--a cycle of instability. Already there has 
been a troubling spike in violence, with more than 160 killed and 1,400 
injured in demonstrations, daily clashes between pro- and anti-Morsi 
groups throughout the country, and hundreds arrested. Jihadi attacks 
against military and police officers in the Sinai have increased 
sharply, with more than 20 officers killed in the past 2 weeks. With 
Islamists rethinking the value of peaceful political participation, 
Egypt could easily see a return to the type of insurgency and domestic 
terrorism it experienced in the 1990s, when jihadis targeted government 
officials, Christians, and tourists. Under those circumstances, it will 
not be possible to attract tourists and investment back to Egypt in the 
numbers needed to revitalize the economy.
    Fourth, in light of these many dangers, the United States should 
proceed with caution and be guided by basic principles. Egypt can only 
be a reliable security partner for the United States and peace partner 
for Israel if it is reasonably stable, and it will only become stable 
once it develops a governing system that answers strong popular demands 
for responsiveness, accountability, fairness, and respect for citizens' 
rights.
    There will be signs in the coming weeks showing in which direction 
Egypt is moving after this cataclysmic change. Will Morsi and other 
Brotherhood leaders be released and encouraged to participate in 
peaceful politics, or will they be imprisoned on trumped-up charges? 
Will there be freedom for the media, including those affiliated with 
the Brotherhood? Will the process to amend the constitution be broadly 
inclusive, or will it be rushed, nontransparent, and designed to meet 
the demands of a chosen few, such as the military and the Salafis? Will 
Egyptian and foreign nongovernmental organizations be given freedom to 
operate and serve as watchdogs of the transition, and will the recent 
convictions of 43 NGO workers (including 16 Americans) be reversed?
    The United States should take this time to pause, suspend military 
deliveries and assistance in accordance with our law, and review policy 
toward and assistance to Egypt, including special privileges such as 
cash flow financing for Foreign Military Financing. The U.S. 
administration should carry out its own internal review as well as a 
broad dialogue with Egyptians inside and outside the government, with 
the stated intention of resuming assistance as soon as the country is 
clearly back on a democratic path. Military and economic assistance 
should not be kept on autopilot as they were during the Mubarak years, 
but updated in order to support a stable, prosperous, democratic Egypt 
that plays a vital and responsible role in the Middle East region.
    The United States is understandably wary of damaging its 
longstanding relationship with the Egyptian Government and military, 
but it should also avoid pursuing a policy that appears cynical and 
unprincipled. Hewing too closely to the party currently in power, 
treating opposition groups and civil society as irrelevant, and 
ignoring democratic principles have earned the United States sharp 
criticism from all sides in Egypt. But we should not make the mistake 
of concluding that the United States no longer has any influence there; 
the fact that Egyptians still pay such close attention to what our 
officials and diplomats do and say suggests quite the opposite.

    The Chairman. Thank you.
    Ambassador Kurtzer.

    STATEMENT OF HON. DANIEL C. KURTZER, S. DANIEL ABRAHAM 
  PROFESSOR IN MIDDLE EASTERN POLICY STUDIES, WOODROW WILSON 
     SCHOOL OF PUBLIC AND INTERNATIONAL AFFAIRS, PRINCETON 
                   UNIVERSITY, PRINCETON, NJ

    Ambassador Kurtzer. Mr. Chairman, Ranking Member Senator 
Corker, distinguished members of the committee, thank you very 
much for the invitation to be here today.
    And to you, Senator Menendez, as a citizen of New Jersey, 
thank you for your service on behalf of all of us and for our 
Nation.
    Having spent 7 years living in Egypt while serving our 
country in our Foreign Service, I cannot tell you how excited I 
have been over these past 2 years to see a people long under 
the yoke of authoritarianism and dictatorship striving to 
define who it is they are and what it is they want to be, how 
they want to shape their society.
    In fact, this has been largely a revolution to define 
Egypt's identity and to establish a constitutional basis, a 
legal basis, for Egypt to pursue its own form of democracy.
    In some respects, then, what we are experiencing today is 
the second chance for this revolution, a revolution that has 
gone through a number of phases and is likely to continue to go 
through phases, as the Egyptians wrestle with these pressing 
large issues on their agenda.
    I would offer, then, three comments in addition to the 
written testimony that I submitted for the record.
    First, we need to understand that this is an ongoing, 
dynamic process. We are in round three or four of what might be 
termed a heavyweight bout. There are forces in Egypt that are 
going to continue to contest for political power. And the 
Egyptian public is, as we know, badly divided, almost evenly 
divided, among these various forces, including those who look 
to the military and security services for stability and law and 
order, including those who would like to see Egypt defined by 
an Islamist agenda, and including those who were not that 
unhappy with the previous regime and simply want to return to 
some form of stability while enjoying some more liberty and 
freedom.
    So we need to be patient as a revolution that is only in 
its 3rd year continues. And as revolutions go, they normally 
take a long time to unfold.
    I think, second, as we look at the events, particularly 
over the last few weeks in Egypt, we should be struck by the 
degree to which a form of popular will was expressed, both in 
the petition that gathered many millions of signatures, as well 
as the demonstrations on June 30 and afterward that persuaded 
the military to oust former President Mohammad Morsi.
    I know we are debating the question of whether this fits 
the definition of a coup, according to our law, and we should 
be debating that question, as the lawyers look at legal issues. 
But we also need to be mindful that millions of Egyptians took 
to the street from all classes, all sectors of society, not 
just Cairo, but upper Egypt as well, Alexandria and the delta, 
to say that they did not like what President Mohammad Morsi was 
doing to the country, having ignored the advice of experts on 
the economy, having fired judges and basically asserted powers 
and accrued powers only to himself, having turned a blind eye 
when it came to massacres of Coptic Christians and others.
    In other words, the Egyptian people basically said we were 
ready to go to the streets to push Hosni Mubarak out of office, 
and we were ready to go the streets to push Mohammad Morsi out 
of office. And so that popular will also needs to be factored 
into our thinking.
    And the third point I would note, in line with previous 
testimony of my colleagues, is the question of U.S. leverage. I 
think we need to understand that the Egypt-United States 
relationship that we have enjoyed now for more than three 
decades is changing, and it is changing rather rapidly. The 
degree to which our assistance in the late 1970s and 1980s and 
1990s contributed to major changes in Egypt: we helped 
transform the Egyptian military from a military reliant upon 
Soviet doctrine, training, and weapons, to a military that is 
basically interoperable with ours.
    That military provides significant strategic assistance to 
whatever we do in the Middle East and beyond the Middle East, 
as we know.
    We have created a partnership with Egyptian intelligence 
and counterterrorism agencies that has been of direct benefit 
to the United States in our own effort to counter terrorism 
against us and against our interests.
    We helped changed the Egyptian economy from the statist 
economy that Hosni Mubarak inherited in 1981 to an economy 
which is largely dominated by the private sector, although 
there are still changes that need to be effected to make this 
an economy that provides its benefits fairly to all the 
Egyptian people.
    In other words, the investment that we made in Egypt over 
the past decades has paid off. And it is an investment that we 
need to consider as we think about what we want to do in the 
future.
    Our leverage with respect to Egypt today is reduced, and we 
need to understand that. And the degree to which we do can help 
us see Egypt through what some are calling a second chance in 
its own revolution, but a second chance also for us to redefine 
this important strategic relationship.
    In that respect, I think it would be shortsighted to cut 
aid to the Egyptian military at this time. In fact, as I say in 
my written testimony, we should have considered doing this 
years ago, because Egypt's needs have largely been economic, 
our having helped transform their military to a military that 
is interoperable with ours.
    But to cut that aid off now would lose us the one partner 
that has proven to be stable and reliable in pursuit of our own 
strategic objectives.
    So right now, our objective should be to see Egypt through 
this crisis, to help it by providing advice quietly. We tend to 
say too much publicly in this country. We tend to react too 
much to daily events. We tend not to sit back and see how 
trends are going. And so quiet advice may be the order of the 
day.
    And secondly, I think our own actions in this respect need 
to be tempered as well, understanding that the Egyptian people, 
a proud people, are going to define their own future. We can 
help them do it, but we cannot make demands of them and expect 
them to follow our demands simply because we are providing 
assistance.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Kurtzer follows:]

              Prepared Statement of Hon. Daniel C. Kurtzer

Current situation in Egypt
    Egypt remains in a state of revolutionary upheaval, marked by 
political, economic, and social instability. Since the ouster of former 
President Hosni Mubarak in February 2011, Egypt's political parties and 
groupings have been beset by severe internal wrangling, and they remain 
badly fractured. Successive administrations have failed to establish 
security and basic law and order, and have also failed to secure enough 
political consensus from opposing political forces so as to be able to 
govern effectively.
    Ousted President Mohamed Morsi faced, and could not resolve, 
pressing problems: A breakdown in law and order, especially acute in 
the Sinai Peninsula; depleted foreign exchange holdings, exacerbated by 
slowdowns in key economic sectors; and food and energy shortages. 
Morsi's own actions contributed to significant doubts about his and the 
Muslim Brotherhood's agenda, sparking fear of a rapid Islamicization of 
Egypt. He fired judges, paid little heed to violence against Coptic 
Christians, rammed through a new constitution, failed to take any steps 
to remedy the economic crisis, and seized nearly all powers in his own 
hands. Because the election to the People's Assembly (Parliament) had 
been nullified by the courts, no mechanism existed constitutionally to 
challenge Morsi's rule. In place of an unavailable impeachment process, 
a civil society organization, Tamarod, organized an unprecedented mass 
petition and mass rallies involving an estimated 20 million Egyptians 
throughout the country, representing all classes and social strata. 
This led the military to oust Morsi in early July and install an 
interim civilian-led administration.
    The interim government is now in place, and it is the strongest and 
most reputable since 2011. The government is reaching out to the Muslim 
Brotherhood to try to launch a national reconciliation process, but the 
Brotherhood thus far is demanding conditions--such as the restoration 
to office of Morsi--that are unacceptable to both the government and 
the military. The government has also promised a rapid return to 
constitutional rule, including a process for amending and approving a 
revised constitutions and new elections for President and the 
Parliament.
Viability of the interim government's roadmap to restore democratic 
        government
    The new Cabinet faces at least four daunting challenges: To 
stabilize the internal situation and restore law and order, thus 
providing a much-needed sense of security for Egyptians to return to 
normal life; to find a pathway to political reconciliation with the 
Muslim Brotherhood, thus preventing a possible spiral of violence 
between supporters of the government and army and supporters of the 
Brotherhood; to kick-start the economy which has been stalled since the 
2011 revolution, a task made easier by an injection of substantial Arab 
aid and loans; and to organize a fair, transparent process of amending 
the constitution and conducting new elections for President and 
Parliament.
    Of these urgent requirements, the most challenging will be the 
reintegration of the Muslim Brotherhood into the political process. 
Mutual distrust, the desire for settling scores, and long-term 
antipathy between the Brotherhood and the military complicate this 
process. The interim government reportedly has reached out to the 
Brotherhood, but the Brotherhood's preconditions--to restore Morsi to 
the Presidency, reaffirm the constitution, and reinstate the Shura 
Council--have been a stumbling block, perhaps insurmountable. In the 
meantime, the Brotherhood continues to mobilize demonstrations of its 
own, and it is surely capable to doing violent things.
    In this standoff between the Brotherhood and the military, each 
counts on a strong base of support. The Brotherhood has long experience 
in maintaining its internal base, having spent much of its 85 years 
underground. But the Brotherhood has lost ground in the past year, and 
is now more hard-pressed to demonstrate the political clout that 
brought its leadership to power during the past 2 years.
    On the other hand, it is widely accepted in Egypt since the 1952 
revolution that the military is the most important symbol and 
embodiment of modern Egyptian nationalism. The liberal parties that 
flourished in Egypt before the 1952 revolution proved unable to govern, 
stand up to British domination, or deal with the corruption of the 
monarchy. For the past decades, the military has been content, in the 
words of Dr. Steven Cook, to ``rule'' but not ``govern,'' that is, it 
sees itself as the ultimate arbiter of power in the country but does 
not want to govern day to day. Indeed, the military's poor governing 
performance after the 2011 revolution reinforced the preference to sit 
behind, rather than on, the seat of power.
    It is possible, surely desirable, that this state of affairs change 
over time, as Egypt's very nascent democracy matures. For this change 
to happen, Egypt needs to develop more mature democratic institutions 
and a more tolerant democratic political culture and atmosphere. This 
is simply not the situation today.
Prospects for further political and civil unrest
    Increasingly violent confrontations between the Muslim Brotherhood 
and the security forces, as well as the serious breakdown of law and 
order in the Sinai Peninsula, almost guarantee that things will remain 
unstable in Egypt for some time. Even if the interim government can 
induce the Brotherhood to enter reconciliation talks, the government 
will require a strong, coercive capacity to ensure domestic calm. 
Absent this, the violence could easily deteriorate over time into civil 
war.
    In this respect, it would make no sense for the United States to 
cut off aid to the Egyptian military, the one group in Egypt that 
continues to share our interests and the only group ultimately capable 
of assuring domestic stability. The standing of the United States in 
Egypt today is as low as it has been at any time since the days of 
Gamal Abdel Nasser. A cutoff of assistance now would gain nothing for 
the United States, but would surely alienate us from the military.
American national security interests in Egypt
    The United States has important national security interests in 
Egypt:

  <bullet> Military cooperation and coordination: Virtually everyone 
        and everything the U.S. military sends to Afghanistan and the 
        gulf passes through or over Egypt, and Egyptian military 
        coordination/cooperation is vital to the execution of our 
        military's missions. The Egyptians provide vital, expedited 
        Suez Canal clearances, and facilities for the repair and 
        refueling of our planes and equipment.
  <bullet> Intelligence cooperation: Egypt and the United States 
        maintain a robust and mutually beneficial intelligence 
        relationship.
  <bullet> Antiterrorism cooperation: Egypt has been a significant 
        partner in the United States effort to push back against global 
        terrorism.
  <bullet> Peace process: The Egyptian-Israeli peace treaty remains the 
        cornerstone of 
        efforts to achieve a comprehensive peace, and Egypt's support 
        for Palestinian peacemaking efforts remains vital.
  <bullet> Regional politics: While Egypt's leadership role in Arab and 
        Muslim politics has softened in recent years, its influence 
        remains in moderate politics in the region.
  <bullet> Democratic change: Notwithstanding all the challenges noted 
        above, Egypt's slow and unsteady march toward democracy 
        continues to represent a very important model for the rest of 
        the region, in either its possible success or failure.
Options for U.S. foreign policy to support the restoration of 
        democracy, including the appropriate role of U.S. foreign 
        assistance
    There is a story, possibly apocryphal, of a Soviet general who was 
asked in 1972 whether the Soviets were upset about Sadat's decision to 
expel Soviet military advisers from Egypt. ``Certainly,'' the general 
replied, ``we are upset about losing our foothold in Egypt. But 
remember, we enjoyed 17 years of strategic friendship . . . not bad.''
    It is extremely hard for global actors to maintain a strategic 
relationship with regional states over a long period of time. Not only 
do their interests fail to align properly, but there are great 
incentives for both to play off the other in a constantly shifting 
environment of regional and global politics. The U.S.-Egyptian 
relationship is entering its 45th year--a remarkable achievement in and 
of itself.
    That said, no relationship can remain static in the face of changes 
in the environment. Although Egypt continues to face security 
challenges--Sinai, Ethiopia water, regional conflict spillover--a 
reasonable (nonprofessional) assessment is that Egypt could sustain a 
gradual, steady diminution in U.S. military assistance. Indeed, it 
would have made sense years ago to shift U.S. aid gradually from 
military to economic assistance; and it will make sense to do so in the 
future, after the domestic political and economic situation stabilizes. 
Today, however, Egypt's emergency economic and financial needs are 
acute. The successful conclusion of an IMF agreement should stimulate 
substantial external assistance, including from the United States; and, 
as noted above, it is vital to maintain our relationship with the 
military.
    Morsi's ouster was not a preference of American policy, just as 
Morsi's actions while in office were not consistent with American 
interests. The reality is our bilateral relationship has changed, and 
the leverage and the influence the United States used to exercise in 
Egypt no longer are as potent. But in the same way that current events 
represent a second chance for the Egyptian revolution to succeed, they 
also represent a strategic opportunity for the United States to 
stabilize and strengthen our relationship with Egypt, and to preserve 
important American interests.

    The Chairman. Well, thank you all for your testimony. It is 
very insightful.
    And as both diplomats and academics, you need more than 5 
minutes to do it, but it was all very worthwhile.
    Let me start off. I am concerned, and I would like to hear 
your views, I think Egyptian society believes that the United 
States somehow sided with the Brotherhood in a way that was 
against their will. And I sense that from conversations, from 
civil society, from reading.
    And if we were to cut off the aid now, would that not, in 
that civil society, reinforce the view that that is, in fact, 
the position of the United States? What would you say to that?
    Ambassador Ross. Yes, I do think that would be the effect. 
Whether the perception was correct or not is immaterial. It 
existed.
    And if now we were seen as cutting off aid, it would be 
seen 
as being a statement that we were siding with the Brotherhood 
against, as I said, what I think is a majority of the public. I 
am not saying it is a wide majority, but I think it is a 
majority of the public, and we would be seen as trying to 
dictate against the popular will.
    So I think it would produce a backlash. It would not yield 
us any benefit. And that is one of the reasons I do not favor 
it.
    The Chairman. Anyone else want to venture a comment?
    Dr. Dunne. Senator Menendez, you are quite correct that a 
lot of Egyptians think the United States sided with the 
Brotherhood. And before that, they thought we sided with the 
Supreme Council of the Armed Forces. So we have had a situation 
where Egyptians of all kinds, whether they are secular or 
Islamists, take a dim view of U.S. policy because they view it 
as having been without principle and narrowly self-serving, 
that we stuck close to Mubarak when he was in power, then the 
SCAF when they were in power, then Morsi when he was in power, 
and there have not been any principles motivating our policies. 
So that is one issue.
    The other issue is how would Egyptians react to a 
suspension of our aid. I agree that what Ambassador Ross says 
is a danger, but it will depend largely on how the Egyptian 
military would decide to play this. They can drum up anti-U.S. 
sentiment, if they would like to.
    Or they could choose to say, look, the United States is 
suspending this assistance temporarily. That is their law. But 
we are going to see through a democratic transition. And so it 
is not a problem. The assistance undoubtedly will be resumed, 
because we fully intend to come through on the transition to 
democracy.
    Ambassador Kurtzer. I would add one thing. First of all, to 
underscore what Dr. Dunne said, the fact is that the Egyptian 
public is perceiving American policy only in line with its own 
views. So when the SCAF, the Supreme Council of the Armed 
Forces, was in power, we were seen as holding them together. 
When the Muslim Brotherhood came to power, we were seen as 
supporting them. And we are now seen as supporting this interim 
government.
    So trying to play to the sentiments of a public that is 
trying to sort out its own political views is going to be quite 
difficult.
    Among the problems, though, in terms of this aid cutoff 
question, as you suggested, Senator, are the implications. And 
it is not just an implication defined by how the public would 
absorb this, or even, as Dr. Dunne suggested, how the military 
might react to it, but whether or not it serves our interests.
    What is the military doing today that does serve our 
interests? They are trying to calm the situation in the Sinai 
Peninsula, which is extraordinarily dangerous, in which 
jihadists not only from Gaza, but from elsewhere, have fought 
to use that peninsula as a launching pad for attacks against 
Egyptians and against Israel.
    They are also closing tunnels, tunnels that are used for 
smuggling between Sinai and Gaza. For the first time in 
decades, those tunnels are now in jeopardy.
    And the military, as it is doing that, continues to provide 
the support that we have needed to move our personnel and our 
equipment where they have to go. And as long as we have 
deployments east of Egypt, we are going to require support and 
assistance from the Egyptian military to do so.
    So in the short term, it may be that the military could 
live with a temporary cutoff. But we would be cutting off our 
own nose to spite our face, in this case. And I think it would 
not serve American interests to do that.
    The Chairman. It seems to me that the question is some 
leverage versus no leverage, at the end of the day. And 
personally, I believe using the leverage is an appropriate use 
of American resources in pursuing the national interests of 
security of the United States.
    I also think about cutting off aid totally at this time, as 
some have suggested, I know some of our colleagues, including 
some members of this committee, at a time in which Egypt's 
economy is in a downward spiral, and the potential effect of 
that. There may be others in the gulf who will try to replace 
us, which of course would mean we would have no influence. They 
would replace to some degree the assistance.
    But it still would be, I think, a very significant blow to 
the economy. Is that an additional concern?
    And secondly, some of the language in the appropriation 
bills that are beginning to move are citing three conditions 
for the disbursement of United States military assistance to 
Egypt. One is an inclusive political process; two is credible 
democratic elections; and three is democratic governance that 
protects the rights of religious minorities and women.
    Do you think that those are the appropriate conditions? And 
precisely what steps should the military and the interim 
government take to satisfactorily check those three boxes?
    Ambassador Ross. Let me say a couple things.
    First, I do think it has a potential on the economy, not 
just in terms of the objective reality, but what I would call 
psychologically, it has some potential impact. But I would 
worry, in a larger sense, less about the economy and more about 
our ability to affect the Egyptian military to exercise 
restraint.
    I am worried, based again on what General El-Sisi said 
yesterday, that if we have little influence on the situation 
and they turn more to the gulf, understand one thing, the 
Saudis and Emirates, for their own reasons, want a very tough 
suppression of the Muslim Brotherhood because they see the 
Muslim Brotherhood and political Islam as a mortal threat to 
them.
    So if we are, in effect, going to push the Egyptian 
military closer to the arms of the Gulf States, then I think 
any prospect of restraint goes out the window. And if part of 
our aim is to try to enhance the prospect of Egypt evolving 
over time in much more favorable direction, I think if we take 
ourselves out of this equation right now, the prospect of 
restraint disappears.
    I would also say one other thing. I agree with something 
Dan said earlier. We are more likely to have an effect if we 
try to do it quietly. The more it appears, in the eyes of 
Egyptians, we are seen as telling them what to do, the more we 
may trigger a nationalist backlash.
    Now, that does not mean we take away the potential to say 
things quietly, or it does not mean we take away the potential 
to say things publicly. They should understand what we say in 
private is not going to remain in private if there is no 
responsiveness. And they should understand they do lose a 
connection to us. And they want that connection to us.
    But I am afraid if we do it in a way that they see as too 
heavy-handed, it will be used against us. And there is a long 
history here of the United States saying certain things in 
public that trigger a nationalist impulse.
    I go back to the mid-1960s, when Nasser reacted to 
something President Johnson said, and said we could go drink 
all the water of the Mediterranean and the Red Sea.
    The Chairman. Do either one of you want to----
    Ambassador Kurtzer. Yes, if I could comment on the economic 
crisis that Egypt is facing as part of your question, Senator.
    I think you are exactly right that our focus on military 
assistance has to do with the legislation and the definition of 
what happened. But Egypt has been in economic crisis for the 2 
years since the revolution began, which is quite ironic because 
if you look at the numbers just before the revolution, Egypt 
was on a very significant upward turn, with respect to its 
manufacturing sector and its tourism sector and its foreign 
exchange earnings.
    They are now at a point where the gap in financing is 
approaching $3 billion a month. And in a situation where their 
foreign exchange has been depleted, and is declining rapidly, 
this represents a very significant crisis.
    So as I suggested in my written testimony, there may be a 
need, in fact, if Egypt can reach agreement with the 
International Monetary Fund, to think about emergency 
assistance for Egypt to complement what the Arab States are 
doing in order to get Egypt over the economic hump.
    On the second issue you raised, Senator, of the potential 
conditionality that is being written into legislation, as one 
who lived in Egypt for 7 years and worked with Egyptians for a 
very long time, when they hear about conditionality, even if 
the conditions support and complement what they want to do, 
their backs get up, and they become very challenged by it.
    I hope we can talk about these as goals that we and the 
Egyptians share, the goals for an inclusive political process, 
a process in which the rights of women and minorities are 
protected.
    To the extent, however, that these become the equivalent of 
dictates from the United States, I think we are going to see 
pushback from the Egyptians. And that will present its own kind 
of problem for us.
    The Chairman. Thank you very much.
    Let me----
    Dr. Dunne. Senator, may I comment on this question as well?
    The Chairman. You know, I would like to move to other 
members. But I appreciate maybe at the end, when other members 
have had their opportunity.
    Let me, before I turn to Senator Corker, recognize and 
welcome to the committee in his first hearing, Senator Markey 
of Massachusetts.
    Senator Markey has a long history in the House of 
Representatives, where I had the privilege of serving with him. 
He has cared about international issues for some time and has 
been a leader in climate change and nuclear issues. And we 
welcome him to the committee and look forward to his service 
with us.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    And welcome, Senator.
    And, Dr. Dunne, since we have such new spirit in the air 
here, if you want to take 30 seconds of my time to answer, go 
ahead.
    Dr. Dunne. Thank you, Senator.
    Senator Menendez said it is a question of some leverage 
versus no leverage. The United States has kept the military 
assistance going and has never used it as leverage. So I think 
we are reaching a point where, really, there is not much 
credibility here of having any leverage with that assistance.
    Ambassador Ross said he would be in favor of using it at 
some future point, if there was no responsiveness. My 
understanding is that the administration reached out rather 
assertively to General El-Sisi to argue against a military 
coup, and there was no responsiveness, so we are already at 
that point.
    Senator Corker. Thank you.
    And, Mr. Chairman, again, thanks for having this hearing.
    For what it is worth, I appreciate the testimony greatly. I 
do think that our Nation's role in Egypt right now should be an 
instrument of calmness. And I think all too often, we make 
these issues about us and what we are going to do--I mean, 
unfortunately, that is one of the great diseases we have here 
in Washington--when really this is about them, and it is about 
an orderly transition, and hopefully moving through a 
democratic process.
    So I appreciate the comments relative to that, and think 
that that should be our role as we move forward.
    And I agree that much of our advice should be happening 
privately and not so much divisiveness occurring here. So I 
very much appreciate the comments regarding that.
    Let me ask you this question, the transition plan that has 
been put in place by the military, do we view that timeframe as 
something that is realistic?
    Ambassador Ross. I made a reference in my testimony to 
international observers, monitors coming in, and that if the 
international community, in terms of observing elections, were 
to say more time is necessary to prepare, I would actually 
favor that as it relates to the elections.
    I do agree with what Michele said. Preparing the 
constitution in advance of elections is the right thing. It was 
important, I think, to put out a date for elections, but, 
again, I would like it to be guided more by the right kind of 
preparation above anything else.
    Senator Corker. Do you think it is somewhat unrealistic?
    Ambassador Ross. I am a little worried, just as I thought 
the way the SCAF approached things, it was not necessarily 
realistic. I think the sequence is more appropriate this time 
than it was last time.
    But I still would like the ground to be prepared, and I 
would like to create more of a basis, potentially, for 
inclusion, which I think at this point is going to be very 
difficult to produce.
    Senator Corker. Dr. Dunne.
    Dr. Dunne. I agree with Ambassador Ross. I think the 
sequencing is good, but we also have a situation in which the 
constitution is to be rewritten by a small, closed committee 
and then looked at by 50 people appointed by the President. And 
it is also supposed to happen in just a couple months. I think 
it is probably unrealistic.
    And if Egypt wants to have a constitution, which this time 
around you have much broader buy-in than last time, it is 
probably going to take longer and need to involve a lot more 
people.
    Senator Corker. Before moving to Mr. Kurtzer, you made the 
comment, I think, that the Muslim Brotherhood was not included. 
We have talked with many people in Egypt who say they have 
tried to include them in this process and have been spurned. So 
which is it?
    Dr. Dunne. Well, as I said, Senator, I think there are 
conflicting signals. I mean, people are saying the Muslim 
Brotherhood is included, is invited to dialogue. But then they 
have their entire leadership in prison, and so forth.
    You know, Morsi also kept inviting the opposition to 
dialogue during his Presidency, but they knew that it was not a 
real and sincere offer and that he had no intention of really 
acting on that.
    So unfortunately, this is something that is happening again 
and again in Egypt.
    Senator Corker. Well, Mr. Kurtzer, are they included or are 
they not? And what about the transition time?
    Ambassador Kurtzer. Well, on the transition time, Senator, 
we cannot have it both ways. On the one hand, we are pushing 
very hard for the military to truly go back to the barracks, 
which we all favor. And I think the military would prefer to do 
that as well. And on the other hand, we cannot complain about a 
short transition period. I think we are going to have to abide 
by Egyptian will in this case.
    Now, it is a very fast, perhaps too fast, process that they 
are expecting. The whole thing is supposed to happen in 4 or 5 
months, as these committees go through their work.
    But if we want the military truly to go back to the 
barracks, then we may just have to buy into a process which is 
moving a little bit faster than we would advise.
    With respect to the Muslim Brotherhood, the system is not 
going to stabilize unless some kind of a dialogue is undertaken 
successfully.
    Senator Corker. Do you think there has been the appropriate 
reach-out to try to include them in what is happening in this 
transition and they have spurned it, or not?
    Ambassador Kurtzer. Well, there have been efforts so far to 
reach out. So far, the pushback has been there as well.
    One of the preconditions on the Muslim Brotherhood side is 
the release of former President Morsi. That may not happen 
soon.
    But I would not doubt that there is dialogue underway every 
day behind the scenes, even as they are confronting each other 
in the street. The question is whether or not they are going to 
find a formula that will allow the Muslim Brotherhood to climb 
down from the tree, and also allow the military to climb down.
    In this respect, we saw before the ouster of Morsi that the 
European Union, with its diplomats, had actually come quite 
close to persuading the Morsi government to undertake some 
reforms. It may be that there are also diplomatic activities 
going on behind the scenes in this direction.
    Senator Corker. Before stepping back to the bigger picture, 
if I have time, we read this morning about what is happening at 
the border crossing. I was in Rafah in Gaza not long ago, and 
to act as if there is actually border control was a joke. I 
mean, anything you wanted was coming through the tunnels. It 
was very sophisticated.
    All of a sudden, the military has moved to close that off, 
which is a huge change in activity there.
    Do we have any idea what is driving that abrupt, I would 
say, good change? But what is driving that?
    Ambassador Ross. I think it is being driven by a couple of 
factors, but it all revolves around the perception of the 
military of Hamas and what Hamas has been doing.
    There is a narrative that has built up in Egypt that Hamas 
has been very active within Egypt itself. And I think there is 
also perception that this movement through the tunnels was a 
two-way movement, and, therefore, it threatened Egypt. And you 
have jihadis now in the Sinai, and I think part of the closing 
of the tunnels is trying to affect that two-way traffic.
    Ambassador Kurtzer. There is also, Senator, a backstory 
that is emerging. There is a Reuters piece that I saw this 
morning that suggests that the military some months ago asked 
Morsi for approval to undertake a major security operation in 
Sinai. And Morsi's response, according to this article, was 
that he would not authorize actions by Muslims against Muslims.
    So the military has been stymied in its effort to try to 
restore security in Sinai, and I think we are now seeing the 
first effort by the military to do what it wanted to do over 
the past year.
    Senator Corker. Thank you for your testimony and for being 
here.
    Mr. Chairman, I will wait until the next round.
    The Chairman. Thank you.
    Senator Boxer.
    Senator Boxer. Thank you so much, Senator Menendez, Senator 
Corker, for this opportunity to listen to people who are 
experts on this.
    And I will tell you, we need to hear you, because so much 
of the situation is nuanced. And so cutting through that nuance 
is sometimes difficult, if you are not very familiar with it.
    I just would like to say, to Dr. Dunne, on the issue of 
whether aid to Egypt gives us leverage, I am not asking a 
question, I am giving an opinion, which you do not have to 
share. But I think all of our foreign aid, being done for all 
the right reasons, humanitarian, and so on, it is still 
leverage.
    I mean, we would hope that people would appreciate the fact 
that we care enough about them, and might, in fact, listen to 
us from our standpoint as to the best way to develop and the 
best way to reach for democracy.
    So I would say I disagree with you. I think all of our 
foreign aid should give us leverage in the best of ways.
    I wonder whether any of you would disagree with this, that 
Mubarak was a military dictator. Does anyone disagree with that 
on the panel?
    So you all agree. He was a dictator, a military dictator. 
And he was in power from 1981 to 2011. So I really think, for 
those of us, all of us, who were stunned with the popular 
uprising, and if you call it a popular uprising, you are 
showing some kind of bias. If you call it a coup, you are 
showing another kind.
    But whatever you call it, it cannot be, when you think 
about the fact that here is a people for 30 years had a 
military dictatorship and no rights, they are struggling to 
figure it out.
    So I want you to help me figure it out, bringing all of 
your thoughts to the table, and your biases, as we all have 
them in some way or another. We try not to, but we might.
    So what I took from all of this is that there was an 
absolute fear on the part of, let us say, a majority of the 
people there, slim or larger, that Morsi was not living up to 
his commitment to be inclusive.
    And that is why, Dr. Dunne, when you explained that this 
temporary government is including Islamists, as well as 
secularists, I think that is what you said, although not 
necessarily the Brotherhood, they are reaching out, I mean 
isn't that the point? What he promised was everyone would be 
brought in.
    So my sense of it is this absolute fear that Egypt was 
moving in a direction that was very dangerous, and that if 
something was not done, they would lose their chance at true 
democracy.
    Now, am I conflating things? Am I being too simplistic?
    But I would like to know, if you were to analyze why it 
happened, how would you explain why this happened after an 
election?
    And I will start with Dennis.
    Ambassador Ross. I would say there are several reasons. A, 
I think there was a perception that many of the people who 
voted for Morsi felt betrayed. They had expected that there was 
going to be inclusiveness and there was not. I think there is 
also, when all segments of society, I think, were involved, it 
was also looking at what was the near collapse of the Egyptian 
economy. Life was getting dramatically worse on a daily basis, 
and there was a perception that this was literally a leadership 
that was not only incompetent, but it almost seemed 
indifferent.
    So what you had is a perception of a leadership that was 
authoritarian, exclusive, intolerant, and incompetent.
    And it basically produced what I think was this very broad 
alienation across different segments of the societies. So I 
think there were multiple factors, but I think it sort of added 
up to that.
    Senator Boxer. Dr. Dunne.
    Dr. Dunne. Senator, first of all, I do agree with you about 
our aid being leverage. And a couple times, the gulf aid has 
come up as though, well, this can just replace our aid if we 
withdraw it. The military assistance that the United States has 
extended, it really means something beyond dollars only. So it 
is a kind of a relationship, the transfer of technology. It is 
joint training and exercises, and all these things.
    Money deposited in the central bank from gulf donors cannot 
replace those things.
    So there are ways in which it is not only our aid that is 
leverage, it is our relationship.
    Senator Boxer. I appreciate that. That is different from 
what I thought you said before.
    But if you could now move to my question, Why do you think 
this happened? You called it a coup, so tell us why you think 
this happened.
    Dr. Dunne. Well, I agree with what you said, that many 
Egyptians felt that if something was not done, they would lose 
their chance at democracy.
    My concern is about what it was that was done. The petition 
that was circulated, these enormous demonstrations, were asking 
for an early Presidential election. That is not what they got.
    And my concern is that what was done, the removal of Morsi 
by coup, and so forth, has damaging implications. And I think 
we are seeing them right now in the streets of Egypt.
    So that is my concern.
    Senator Boxer. Do you have anything to add to that?
    Ambassador Kurtzer. Yes, Senator.
    I think if you look at the actual voting patterns that 
brought Morsi to office, you would see that his support was 
much broader than just Islamists. And, therefore, as you 
suggested in your question, there was an expectation that he 
was going to reach out beyond his own constituency, so he 
certainly failed these additional voters who had decided on 
him, as opposed to the former general, Ahmed Shafik.
    Senator Boxer. Okay, I have one last question, because my 
time is running out. I appreciate it so much.
    I want to talk about Syria, have you talk about Syria. We 
know that Morsi was very, very strong, had a strong 
relationship with the rebel forces, at least part of them. And 
they were very committed. They took a lot of refugees.
    What do you think is going to happen now, in terms of the 
relationship in that terribly tragic situation in Syria?
    We will start with Dennis.
    Ambassador Ross. Well, I do think it is complicated now, 
from an Egyptian standpoint. I think Morsi was perceived as, in 
a sense, supporting the call for jihadis to go to Syria. I 
think that there was a big fear that suddenly you would have 
these guys go to Syria, then they would come back, and you 
would re-create a little bit of what happened in Afghanistan 
and what happened when those people came back to the countries 
that they had left. So I think that drove some of that.
    I think there is probably somewhat of a retrenchment right 
now in terms of Egyptian attitudes. I do think what the 
chairman was saying is legitimate, that we really do not want 
to see them stop being a place where people who are fleeing 
should be able to come.
    So I think this is one of the issues that we should be 
prepared to emphasize in dealing with this Egyptians.
    Dr. Dunne. Egyptian policy toward Syria is in flux right 
now. It is rather unclear.
    There is a certain tendency to do the opposite of whatever 
it was that Morsi did. And we have seen this backlash against 
Syrians inside of Egypt.
    At the same time, though, I think the fact that the new 
Egyptian Government is going to want to have a close 
relationship with Saudi Arabia and the UAE and Kuwait will mean 
that they will want to be within that Arab consensus, which 
still is that President al-Assad should go.
    Ambassador Kurtzer. I think what we are going to see, 
actually, is a revival of what has been a dormant Egyptian 
diplomacy.
    You now have a very strong Foreign Minister in place, Nabil 
Fahmy, whom many of you know quite well. And Egypt has always 
believed that it is a diplomatic leader in this region. So you 
have had Arab policies toward Syria, but you have not had a 
concerted effort to align those policies.
    And I think you may now see an Egypt that tries to strike a 
leadership role in defining what the Arabs can do to effect 
change in Syria.
    Senator Boxer. Thank you.
    The Chairman. Thank you.
    Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman, and the ranking 
member, for holding this hearing.
    First, let us kind of define what our goal here is with 
Egyptian policy. I think in two of the written statements here 
today, it really does a good job of crystallizing it.
    Ambassador Ross, you state, certainly, we would like to see 
Egypt proceed on a path that promotes a representative, 
inclusive, tolerant government that tackles its problems and 
respects minority and women's rights, and fulfills its 
international obligations, including its peace treaty with 
Israel.
    And, Dr. Dunne, you also stated that Egypt can only be a 
reliable security partner for the United States and a peace 
partner for Israel if it is reasonably stable, and it will only 
become stable once it develops a governing system that answers 
strong popular demands for responsiveness, accountability, 
fairness, and respect for citizens' rights.
    I thought that was very well-stated, and it gives us our 
goal for what our policy should be.
    So what we are trying to figure out is what can United 
States policy be that moves Egypt in this direction.
    I think you would all agree that it is impossible to have 
that kind of Egypt, unless the rights of everyone are 
respected, including, for example, the rights--and I will use 
this for an example because I think it is particularly acute--
of the 10 percent of the population which are Coptic 
Christians. And there is a real challenge in that regard.
    The Egyptian Initiative for Personal Rights has stated 
recently that the post-Morsi security apparatus, which are the 
folks that are now in charge, have acted slowly and not 
performed their legally mandated role, failing to intervene to 
protect citizens, meaning Christian citizens, and their 
property, despite prior knowledge of these attacks, and even 
the presence on the scene during some of these attacks.
    I think this has become especially problematic in the 
aftermath, as many Muslim Brotherhood elements are looking to 
scapegoat Christians as the cause for Morsi's fall.
    Amnesty International reports that on July 5, there was an 
attack that killed four Christians and injured four more as a 
mob in Luxor attacked these Christian homes and businesses with 
knives, tree branches, hammers, and metal bars, while security 
forces stood by and watched.
    The situation has gotten so acute that the Coptic Pope, 
Tawadros II, has now for three straight weeks canceled his 
weekly afternoon public prayer in Cairo's Cathedral, for fear 
that the large gathering of Christians would be an easy target 
for attackers.
    So my first question is, in your opinion, as these attacks 
are happening, and we are getting these reports of the security 
apparatus not doing anything about it, is this an unwillingness 
on their part to do anything about it? Is this their inability, 
because they are not properly trained and equipped to anything 
about it?
    Why are we hearing these reports that they are not doing 
anything about it?
    By the way, there are instances of this happening after 
Mubarak but before for Morsi as well. Why are they not doing 
anything about it? Because they cannot, or because they will 
not?
    Ambassador Ross. I have a suspicion that it is a little bit 
of both. I think there is a question of capability. I think 
there is a question of priority. I think there is a question of 
which battles do they want to fight.
    I think all these things are probably coming into play 
right now. But I do think this is one of those areas of acute 
concern for us, where I would like us to be able to retain some 
influence to try to affect their behavior.
    Senator Rubio. Everyone--go ahead.
    Dr. Dunne. Senator Rubio, there has been a long history in 
Egypt of attacks on Christians, and so forth. And there has 
been a tendency to sweep them under the rug, to just try to 
quiet down the communities after these things happen and not to 
really bring people to justice.
    Senator Rubio. This was during Mubarak as well?
    Dr. Dunne. This was, unfortunately, during Mubarak, during 
the rule of the SCAF, during the time of Morsi, and now. What 
is the common thread? An unreformed security sector is what we 
are seeing, a security sector that really does not take the 
rule of law seriously at all, and basically makes its decisions 
on a political basis.
    Senator Rubio. Well, let me tell you why I raise this, 
beyond the morals aspects of it, because I do agree that we 
need to be engaged and that our foreign aid programs for all 
nations, as Senator Boxer pointed out, not just to Egypt, 
should further our national interests. It is in our national 
interest that Egypt be stable.
    I think we all agree that Egypt cannot be stable if 10 
percent of the population feels not just underrepresented in 
the political branches, but unsafe and that the security 
apparatus does not protect them.
    And so with that in mind, I think this, and insisting on 
this, should be a critical part of aid moving forward in terms 
of our insistence that our aid goes toward this, and that, in 
fact, they respect these rights.
    And that is why I question, for example, the need for more 
F-16s, because I am not sure what F-16s could do against a mob 
armed with tree branches and hammers.
    And beyond that, I would argue that I think we would all 
agree, and maybe you could elaborate more on this, that until 
this issue is resolved, until 10 percent of the population 
that, by the way, has a lot of historical presence in Egypt and 
is a significant part of Egyptian society, until the 10 percent 
of Christians and other religious and minority groups and 
women, and everyone else in Egypt, feel like they truly have a 
voice in government, but are also safe and able to prosper 
economically and individually, that you are not going to have 
the kind of stable Egyptian state that we desperately want, not 
just for the security of the region but the peace treaty with 
Israel, et cetera.
    Should not our foreign aid, with countries like Egypt and 
others, be not just geared toward giving them this capacity, 
but conditioned upon them taking significant steps to ensure 
that issues that undermine their stability are addressed?
    Ambassador Kurtzer. Senator, I agree with you fully that 
the issues that you enumerated in your opening remarks are 
critical interests of the United States. But there are 
additional critical interests, which also have to be taken into 
account: the intelligence relationship, the military 
relationship, the counterterrorism relationship, Egypt's treaty 
with Israel as a foundation and cornerstone for everything else 
we try to do in the peace process.
    And that is where the difficulty becomes. We have tried for 
many years. I spent many hours with President Mubarak, arguing 
about the need to find a way to deal with these sectarian 
issues. Some of them have to do with local problems. Some of 
them have to do with larger historical problems. But the 
reality was that that regime and the current regime, and the 
previous regime to the current regime, have not done enough in 
this regard.
    And I think our dialogue with Egypt, and the hopes that we 
express for where Egypt goes, has to include that.
    I am only concerned about the conditionality of 
conditioning our aid on an important issue, but on only one 
issue of a very----
    Senator Rubio. And I am not claiming that it should.
    I apologize. Obviously, my time is limited, so I can only 
focus on different aspects. I imagine other members will focus 
on others.
    Clearly, their agreement with Israel is important. Clearly, 
their counterterrorism cooperation is important, as far as 
conditionality as well.
    But I am just saying that one of the conditions that should 
be in place in foreign aid with Egypt should include them 
taking real, measurable steps to protect religious minorities, 
in particular Christians. And not just that, but the aid we 
give them should be aid that builds that capacity.
    And I am worried that a lot of our aid is geared toward 
military capacities that they quite frankly do not need. As far 
as I know, I am not sure that Egypt is in threat of being 
invaded by any of their neighbors. Hence, the question of why 
we need to continue to send them fighter jets instead of 
capacity-building that they could use, so that they do not have 
to stand by and watch Christians be beat up with hammers and 
metal bars, or anybody, for that matter. That was my point.
    But I do not mean to suggest that that is the only 
condition. But I do believe it is a significant one, and I am 
not sure anyone disagrees with that assessment.
    The Chairman. Thank you.
    Senator Cardin.
    Senator Cardin. Mr. Chairman, ranking member, thank you 
very much for this hearing. It is critically important that our 
committee be engaged as the circumstances are unfolding in 
Egypt.
    As a Senator from Maryland, we have a personal involvement 
here. As I am sure the committee is aware, the end of June, 
Andrew Pochter, a 21-year-old college student from Chevy Chase, 
MD, who was in Egypt to teach English in Alexandria to Egyptian 
youth, was killed during a protest. So we have felt it 
personally in our State.
    Ambassador Ross, you got my attention when you used the 
word ``prolonged.'' This could test our patience as we continue 
to observe changes in Egypt.
    I want to talk about our policies in Egypt as to how it 
affects the region. We have talked about United States aid from 
the point of view of our influence in bringing about changes 
within Egypt. I am concerned also about what impact it has on 
the region.
    United States aid to Egypt was basically part of the peace 
accords reached between Egypt and Israel. The peace agreements 
between Israel and Jordan, although solid, the circumstances in 
Syria have raised questions about the stability of Jordan. And 
we have all seen the on-again, off-again negotiations between 
the Israelis and the Palestinians, and there has been little 
hope of progress being made in that direction.
    Iran has sort of been off the front pages but obviously 
that is an area of major concern of stability in the Middle 
East.
    So I would like to get your assessment as to how our 
involvement in Egypt, particularly as it relates to the foreign 
aid issue, but just generally, could affect the region, if we 
were to jeopardize the flow of funds, would it weaken the 
commitment or the ability to argue for the adherence to the 
peace agreement with Israel? Would that be more in jeopardy or 
not? And how does it affect the region?
    Ambassador Ross. It is easy to say that, in the end, the 
Egyptian military has its own interests and should have its own 
interests in preserving the peace agreement with Israel. I 
think at one level, that is true.
    But I think we should not underestimate the kind of impulse 
that if we were to cut the assistance at this point, the kind 
of impulse it would create among the military to sort of 
demonstrate the costs to us of having done that.
    And I worry about what its implications would be for that 
treaty. I worry about the implications would be for the 
behavior in the Sinai, notwithstanding the fact that these 
still reflect what Egypt's own interests should dictate.
    And I think if you look at the potential consequences and 
you think that those are high and sufficiently adverse, then 
you have to weigh whether you think it is worth taking that 
kind of step at that point this point.
    I do not think it is worth taking that kind of step at this 
point, because I think it reduces our influence to the point 
where I think that we will regret that. And I do not want to 
put us in that position.
    I think it has not only impact within Egypt. But I think it 
has potential relationship toward what is going on in Sinai, 
which, by the way, will end up affecting not only the Israelis, 
but Egypt and maybe elsewhere in the region.
    If the Sinai becomes a regional focal point for jihadis, we 
are going to find that this becomes a threat that radiates 
outward.
    So, from my standpoint, I think it does have a larger 
consequence within the region.
    Senator Cardin. Dr. Dunne, I listened very carefully to 
your point. The popular sentiment in Egypt has never been pro-
Israel, so if the United States were to take steps that would 
challenge the Egyptians from the point of view of their 
independence, does that not put at greater risk the 
relationship between Israel and Egypt?
    Dr. Dunne. Senator, the Egyptian military and the rest of 
the Egyptian leadership make these decisions about Israel and 
about the peace treaty, and so forth, based on their own 
calculations.
    Ambassador Ross was talking a few minutes ago about the 
issue of the tunnels at Rafah and how the Egyptian military now 
is upset about Hamas because of things they think Hamas is 
doing inside of Egypt, and, therefore, they are cutting the 
tunnels to punish Hamas.
    Is not closing those tunnels something the United States 
has been asking them to do for a long time? So it is when----
    Senator Cardin. I do not challenge that the Egyptians, 
particularly the military, will make assessments based upon 
their own interests. That is understandable. My point is the 
popular sentiment within Egypt.
    Dr. Dunne. And the popular sentiment within Egypt regarding 
Israel, I mean the positive side of this is that Egyptians have 
been so preoccupied with their own affairs that we have seen a 
bit less of the anti-Israel kind of grandstanding that we have 
seen in Egypt on and off over the years.
    I think that is largely reactive to things that happen.
    Senator Cardin. The challenge is that the Egyptians 
perceive Israel as being a very close friend of the United 
States, the United States very interested in Israel. The United 
States takes action, which is not perceived as friendly toward 
Egypt by cutting off aid or conditioning aid or suspending aid.
    Is it not logical that at risk could be the relationship 
between Israel and Egypt?
    Dr. Dunne. I certainly do not expect Egypt to take any 
actual aggressive action against Israel because of this.
    In terms of the popular sentiment issue, again, it will 
depend on how the Egyptian military would decide to play this. 
If there were a suspension of aid, and the Egyptian military, 
and there was still hope that we would resume this aid as soon 
as we see----
    Senator Cardin. Let me give Mr. Kurtzer the last 15 
seconds.
    Ambassador Kurtzer. I would offer two brief comments.
    Number one, in large policy terms, the constancy of the 
United States-Egyptian relationship is critically important to 
our interests elsewhere in the region. If we are seen as 
walking away easily from this longstanding relationship, it 
will impact what we do elsewhere.
    Number two, it is critically important that we support 
Egypt as a cornerstone of the Egyptian-Israeli peace treaty. 
And the best proof of this are the newspaper stories this week 
that have suggested that Israel has been lobbying our 
administration not to cut aid to Egypt, because Israel 
understands that that would be against its interests with 
respect to respecting the peace treaty.
    Senator Cardin. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman, for holding the 
hearing.
    And thank you for your thoughtful testimony and answers to 
the questions.
    I would like to understand a little bit more about the 
current political profile of the population.
    Dr. Dunne, you had an interesting comment in your 
testimony, saying that the current alliance certainly is anti-
Muslim Brotherhood, but not necessarily anti-Islamist. Can you 
further explain that comment?
    Dr. Dunne. Senator, I said that because I think there is a 
danger of ours--in the United States--seeing what is happening 
in Egypt in a way that we would like to see it, that we would 
like to see secularism as opposed to Islamism.
    But there is an Islamist partner, the Salafi al-Nour party, 
which is more ideologically extreme than the Muslim Brotherhood 
and which is working with the military and the transition 
government, and so forth. So we will continue to see Islamist 
language in the constitution, and all of that.
    In terms of the affiliation of the population, probably the 
best thing to do is to look at the several sets of elections 
that have been held in Egypt, and where the voting has gone.
    In the past, the voting has indicated that there is 
somewhere between 40 to 70 percent of the population that will 
tend to vote Islamist. It has varied a little bit from election 
to election.
    Now that might go down now with the political fortunes of 
the Brotherhood falling, but Islamists are going to continue to 
be a big part of Egyptian society and a big part of the 
political spectrum.
    Senator Johnson. Ambassador Kurtzer, you refer to the 
population as evenly divided. Can you describe that even 
division? Divided between what?
    Ambassador Kurtzer. Well, we saw in the election of the 
Presidency when Morsi was elected that he won with about 51-
point-something percent, which suggested that 49-point-
something percent was on the other side.
    Now it was a bit of an artificial divide because you had 
polarizing candidates. You had an Islamist candidate on the one 
hand, and you had a candidate very associated with the Mubarak 
regime on the other. And all of those who had stood in the 
first round of the election, who might be called more centrist, 
had not made the cut.
    So you do not have a good test case yet to know how an 
election would play itself out, were you to have a better 
choice.
    Senator Johnson. Again, I am trying to get a description. 
Is it Islamists versus pro-democracy versus pro-stability? Can 
you give me some sort of feel in terms of what is the 
population feeling? What are they leaning toward?
    Ambassador Kurtzer. Well, number one, I would point to the 
fact that there is broad national support for the Egyptian 
military. It does not necessarily translate into electoral 
support unless they put forward a candidate, which they are 
unlikely to do.
    Senator Johnson. Well, that would be pro-stability, then 
basically.
    Ambassador Kurtzer. Pro-stability.
    Senator Johnson. Okay.
    Ambassador Kurtzer. You have, as Dr. Dunne indicated, you 
have from election results for Parliament, Shura Council, and 
the Presidency, we assume that there is 35 percent to 40 
percent of the population that will vote Islamist, either for 
the Brotherhood or for the more fundamentalist Salafist al-Nour 
Party. So you have that kind of a breakdown.
    You have a large population that is undefined that is able 
to bring people out on the street to indicate what they do not 
want, but they have not yet coalesced around a political 
philosophy. These are the folks who brought about this many 
million person protest movement.
    But they then break down. There are some nationalists and 
socialists. There are some liberals. There are all kinds of 
strains between.
    There is something called the National Salvation Front, 
which has sought to become an umbrella for these groups, but it 
has not yet represented a coherent alternative policy.
    Senator Johnson. I do want to talk a little bit about 
foreign aid, but just quickly, in terms of their economy, how 
much of their economy is really driven by tourism? What 
percent? In the good days?
    Ambassador Kurtzer. Oh, in the good days, the rent part of 
the economy, tourism, Suez Canal, expatriate workers, 
represented upward of, I would guess, 70 percent to 80 percent 
of their foreign exchange income. In other words, a huge amount 
of the Egyptian----
    Senator Johnson. So without stability, Egypt's economy is 
going to be a basket case.
    Ambassador Kurtzer. Oh, for sure. When I arrived in Egypt 
as Ambassador in 1998, it was right after a major terrorist 
attack. There was no tourism and they were suffering at that 
point, even though the economy otherwise was in reasonable 
shape.
    Senator Johnson. So the rational thing for the population 
would be pro-stability?
    Ambassador Kurtzer. Yes.
    Senator Johnson. Let me talk a little bit about foreign 
aid, 
because it is extremely complex. It is incredibly unpopular 
here in the United States, obviously.
    Ambassador Kurtzer, you talked about, we need to be careful 
because we have to be quiet in some of our dealings with Egypt.
    But at the same time, before going to continue foreign aid, 
we are going to have to be somewhat public about attaching 
conditions, attaching some controls. I mean, how do you deal 
with that very delicate balance if foreign aid is going to 
continue so we can maintain the type of influence that I think 
most of us would like to be able to provide, so we can provide 
that stability?
    Ambassador Kurtzer. Well, the quiet dialogue that has to 
take place all the time presumably would lead to some degree of 
understanding as to why conditionality or a set of goals are 
attached to our legislation.
    I think pronouncements that come out in the midst of 
deliberations, whether they be from the administration or in 
Congress, have a tendency to get magnified when they are 
reported in Egypt. And it does not give our administration 
representatives, or even congressional delegations, the chance 
to have these quiet conversations.
    I am sure all of you, as you have visited Egypt, have had 
the opportunity to have these quite discussions, and they 
actually can work sometimes, rather than pronouncements coming 
out of the State Department spokesman or the White House 
spokesman.
    Senator Johnson. Senator Cardin was talking about the 
requirement of foreign aid attached to the Camp David Accords. 
When did that the obligation of the United States run out?
    Ambassador Kurtzer. Senator, it is not obligation per se. 
It is voted upon regularly by the Congress. It was an 
undertaking to support the peace treaty back in 1979, and it 
has been renewed ever since, to the tune of upward of $70 
billion of American assistance, both economic and military. But 
there is no long-term commitment that has been written into 
legislation.
    Senator Johnson. Okay, thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you to our panelists for being here today.
    As we observe how Egypt goes forward, what are the risks to 
the transition if the Muslim Brotherhood is totally excluded 
from any future coalition that forms to run the government?
    And I do not know who would like to address that?
    Ambassador Ross.
    Ambassador Ross. I think the key point to understand is 
they represent an important social force within Egypt. So if 
you exclude what is an important social force within Egypt, 
then this is basically a prescription for trouble, because they 
are going to express themselves some way.
    What we have right now is a reaction to the ouster of 
President Morsi. The question is whether or not there can be 
some vehicle for bringing those who are part of the Muslim 
Brotherhood back into the political process.
    What I was saying in my testimony is they should not be 
excluded. If they choose to take themselves out of the 
equation, that is one thing. But they should not be excluded.
    And I do not believe it is going to be easy to bring them 
back in right now, simply because I think they are so 
determined to make a statement that, for the time being, it is 
going to be difficult.
    I do not assume that will remain the case forever, because 
not only are they a social force, but they have their own 
interests in being represented, they have their own interests 
in trying to influence what is going to happen in Egypt.
    Senator Shaheen. And to what extent does it seem like there 
is an understanding or willingness to bring them in? Do we 
think that that is something the military, the current civilian 
folks in charge, appreciate or are willing to support?
    Ambassador Ross. I will just say----
    Senator Shaheen. Would you respond and then Dr. Dunne?
    Ambassador Ross. I will just say the words we are hearing 
are the right words. The question is whether the behavior 
reflects the words.
    Senator Shaheen. Dr. Dunne.
    Dr. Dunne. Senator Shaheen, Egypt just went through a 
period from December 2012 until now where there was a 
constitution passed and laws and so forth, and elections being 
prepared, from which a significant part of the body politic, in 
that case, the secularists, felt excluded, objected to, and it 
led to everything that we saw happen just now.
    So I think that if the Brotherhood, which is a very 
significant movement in Egypt, is excluded this time around, we 
are going to be headed for more of this. We are going to be 
headed for a cycle of instability. So there is that.
    Regarding the sincerity of including the Brotherhood now, I 
think the desire is to cut the Brotherhood down to size through 
arresting their leadership and so forth, and maybe to include 
them in some very disadvantaged condition. And they are not 
agreeing to that, of course.
    Ambassador Kurtzer mentioned earlier that there may be 
negotiations going on, whether among Egyptians, or perhaps with 
some European mediation, that could bring about some sort of 
agreement on this.
    But it is going to be difficult. It is very difficult for 
the Brotherhood to swallow this, that they elected this 
President, and he is removed in this way. And unfortunately, 
the way he was removed allows them to escape from how badly 
they failed in leadership.
    Ambassador Kurtzer. Senator, I would like to sharpen the 
point that Dennis indicated on social cohesion as a problem, as 
a risk.
    I think the risk is actually much more severe if, in fact, 
a national reconciliation cannot take place. What do I mean by 
that? The Brotherhood has a long history, 85 years, most of 
which time living underground and operating outside the system, 
developing a very significant infrastructure outside the 
purview of the state.
    Right now, today, they have adopted tactics that are 
confronting the authorities, and they have decided that that is 
the best way to build up the support that they used to have. If 
they decide not to engage in a national reconciliation process 
that is real--in other words, if the process is real or the 
offer is real and they decide 
not to, they could also decide to engage in what we would call 
an insurgency.
    And they would have that capability, not just because of 
their underground history, but also because this is a region 
where weapons are easy to come by, and where jihadists are easy 
to come by. They cross borders at will.
    So I do not want to sound alarmist, but this is not simply 
a question of the lack of social cohesion. This could 
deteriorate and it could deteriorate rapidly, if, A, the offer 
for reconciliation is not real, or, B, if it is real and the 
Brotherhood says ``No'' to it.
    Senator Shaheen. One of the things that got a lot of 
attention here at the outset of the revolution in Egypt was 
when the Morsi government proposed a law to require the 
national security committee to approve all NGO activities. 
Obviously, people remembered the representatives from IRI and 
NDI who were jailed and how they were treated.
    And it seems to me, as we think about how can we support 
countries like Egypt, that one of the sectors that is really 
critical is the civil society sector. So do we have any sense 
of what this interim government is going to do with respect to 
NGOs and civil society leaders? And is there more that we 
should be doing or could be doing to try and support those 
civil society leaders?
    Ambassador Ross. The short answer; we do not know yet. But 
this is one of those areas that would be the best indication 
that they are for real about wanting to create a genuine 
political process that changes the future of Egypt, that 
creates in Egypt a representative, inclusive, tolerant society 
where there is genuine political space for real political 
pluralism.
    The key to that is going to be building civil society 
institutions. The willingness to embrace and rewrite the laws, 
to pardon those who are prosecuted and found guilty, I think 
that becomes a very significant measure of the direction of 
Egypt, and it should be a focal point of where we try to use 
their leverage.
    Senator Shaheen. Dr. Dunne.
    Dr. Dunne. I agree with Ambassador Ross about that. I think 
the treatment of civil society, freedom for civil society and 
for the media, will be some of the leading indicators of where 
things are going, and that it is something we should press on.
    One thing we have to remember is that our problem about 
this with civil society--and this is why the United States is 
not giving any civil society to Egypt, has not been for some 
time now, because of the NGO case that you mentioned, Senator.
    This started under military rule. So it was not a problem 
under Morsi. It was a problem under both, both under the SCAF 
and under Morsi. So this is something that one would hope could 
be corrected now.
    Senator Shaheen. Thank you.
    Ambassador Kurtzer. Senator, having been the harbinger of 
gloom on the previous question, let me be a little more 
optimistic here.
    If you look at the composition of this interim government, 
they are actually quite good people, many graduates of the 
American University in Cairo, people who grew up with a more 
liberal education.
    So, yes, the past has been a real problem and it has been a 
very significant challenge for us. But I think it is something 
to build on, because I think we may have a government in place 
that actually understands the importance of civil society.
    The Chairman. Thank you.
    Senator Flake.
    Senator Flake. I will yield my time to Senator McCain.
    The Chairman. Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    The Chairman. It is that Arizona collegiality.
    Senator McCain. Not to take away from my time, but we 
believe in the early-bird rule. I guess it is not where you 
stand; it is where you sit.
    Mr. Chairman, I thank you.
    I thank the witnesses. I want to discuss for a minute the 
issue of the one thing that the United States of America stands 
for is the rule of law, which clearly Morsi ignored and 
perverted and took powers onto himself, which were not in 
keeping with his own constitution.
    So we have a law, and that law states very clearly, without 
a national security waiver, as most laws that we pass do, it 
says a coup or a decree will occasion a cutoff of aid to 
whatever country there is.
    So now I see my friends here say, ``Well, he was a bad guy. 
Well, the people supported it overwhelmingly. It was very 
popular to have this coup.'' And as Dr. Dunne pointed out, 
there were elections scheduled fairly soon.
    So we are now in a situation, much to my regret, where we 
are asking the new government to write a constitution, have 
laws, and respect and abide by those rules of law. But for 
purposes of practicality, or whatever reason we might use, we 
are not going to cut off at aid.
    And I do not see a coherent policy toward Egypt. I note 
this morning we are not going to deliver F-16s. We are not 
cutting off aid, but were not going to deliver F-16s.
    I do not see a coherent policy toward Egypt. And if I were 
those people in the street in Cairo, I would not understand it 
either.
    There is a risk of us enforcing our laws that we could 
alienate some people in Egypt who would think we are siding 
with the Muslim Brotherhood. The general, El-Sisi, has now 
called for demonstrations, demonstrations in the street to 
support what they are doing against Morsi. And we see violence 
taking place in various parts of Egypt, and threats of more.
    The one thing I think the Muslim Brotherhood knows how to 
do, and that is operate underground. They did it for many, many 
years, and they are pretty good at it.
    And it was a very tough call for me and Senator Graham to 
make the decisions that we made, but I am not sure how we ask 
another country to impose rule of law and abide by it, and we 
do not for purposes that we think are more important, or 
whatever.
    And by the way, I am glad we are writing a new law which 
does condition aid I think very appropriately. But the present 
law is on the books.
    So I guess my question to you, Ambassador Ross, who I 
admire enormously, how do we reconcile that? What do you think 
about the suspension of the F-16s? Do we have a policy, a 
coherent policy that Members of Congress and the American 
people and the Egyptian people can understand?
    If I could have those responses from all three witnesses?
    Ambassador Ross. Look, the issues you raise, the principles 
you talk about, I understand and I respect. And I think it is a 
terrible dilemma. It is a very difficult dilemma.
    The only reason that I do not favor the cutoff of 
assistance is not because I do not respect the principle; it is 
that I worry about what the consequence is going to be if we do 
it at this point.
    I believe that, in fact, we should retain the ability to 
cut it off at some point, if there is not responsiveness to us. 
But I am afraid if we do it right now, the effect is going to 
be that we lose the key connection we have with the one 
institution in Egypt that I think has some potential for 
restoring stability, which is the military. I think we lose a 
very significant part of the Egyptian public who are going to 
read this as having been an American dictate against the 
popular will. And I am afraid that our capacity to influence 
the military to do things in a direction that gives us a chance 
to establish the kind of rule of law we would like to see take 
place----
    Senator McCain. And the F-16s?
    Ambassador Ross. The F-16, the way I read it is that the 
administration is sending a signal that there is a limit to 
their patience, that they want the military to understand that 
they mean what they say, that if there is not a responsiveness 
to us at some point, that we will act on the assistance. I see 
it as a step that is designed to send a signal.
    Senator McCain. That was the signal, I thought, by 
suspending aid, that until certain things happen, it was also a 
motivation to do so. But I respect your views on it, and I know 
it is the tough call.
    Dr. Dunne.
    Dr. Dunne. Senator, I agree with you. There has not been a 
coherent policy toward Egypt. And I agree with you on 
respecting our own law regarding suspending the assistance.
    One of the problems the administration faces now is that 
because they did not stand up for principle when Morsi was 
there, now they feel they cannot stand up for it now.
    It just seems to me as though we are piling mistake upon 
mistake in our policy toward Egypt. And it really is time to 
take a breath and to rethink.
    I also think that the suspension of aid can be done in a 
way to indicate that we are not cutting off all relations. We 
are not cutting off all cooperation. It does not necessarily 
have to be that way. And it would be the choice of the Egyptian 
military.
    And I would hope that they would choose not to cut off 
their nose to spite the face, because we are required by our 
law to suspend the aid temporarily until they come through on 
their promise to restore democratic process.
    Ambassador Kurtzer. Senator, I know the lawyers have been 
jumping through hoops to find a definition of coup that fits 
one definition or the other. And I will not get into that.
    Senator McCain. It takes a pretty adept lawyer to 
contradict that language, but I understand.
    Ambassador Kurtzer. If it looks like a coup and walks like 
a coup, I will not take it from there.
    But I will say the following, as I mentioned earlier, this 
is a very young revolution, and the Egyptian system has gotten 
it wrong twice, both with the SCAF, the Supreme Council of the 
Armed Forces, as the interim government, and then Morsi as an 
elected bad government.
    Morsi did things that were against the rule of law, 
contrary to what we would call the democratic process.
    The question then is whether a move that we do believe is 
contrary to the rule of law--i.e., the military intervening--
can actually be the dynamic that pushes Egypt or gives Egypt a 
chance to get it right this third time.
    Now that does not answer the legal question, but it does, 
in a sense, underscore the policy dilemma that we are all 
facing.
    Senator McCain. And the F-16s?
    Ambassador Kurtzer. I do not understand the F-16s, other 
than as an immediate reaction to what General El-Sisi said 
yesterday. And if that is the case, you know, I am not sure it 
makes any sense to have done it.
    If there was a justification for the F-16 sale to Egypt, 
that justification should stand anyway, and I assume that the 
F-16s will be delivered at some point.
    Senator McCain. Thank you, Mr. Chairman.
    And I thank my friend from Arizona.
    The Chairman. Thank you, Senator McCain.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair, and to the witnesses, 
this has been an important hearing and many of my questions 
have already been addressed. But let me just go to a couple of 
things.
    We need to do what is best in our own assessment of 
American interests, but I do think perceptions of our allies in 
the region are important; an important factor for us to 
consider.
    I returned from a codel that was led by Senator Cornyn over 
the Fourth of July, and we spent time in both Jordan and the 
UAE. And this was right at the time of the development of the 
street protests and the fall of the Morsi government.
    Both the Jordanians and UAE government officials we met 
with were strongly in favor of continuing support to the 
Egyptian military.
    And while I have not had direct conversations with Israeli 
governmental officials, at least what you read in the press, 
both American and Israeli press, would suggest that they feel 
the same.
    That has been a theme of the testimony this morning, but to 
just kind of put it in a direct question, would you say that 
these critical American allies, Jordan, UAE, and Israel, in the 
neighborhood would be in a strong position that the United 
States should continue aid to the government and especially the 
military government as a stabilizing force during this time?
    Ambassador Ross. The answer is absolutely ``Yes.'' All of 
them see Egypt as an essential pillar of stability in the 
region, and all of them would be profoundly concerned if they 
saw us taking this step because they would worry about what the 
reaction would be.
    Senator Kaine. Dr. Dunne.
    Dr. Dunne. Senator, yes, those allies are in favor of 
continuing the aid. But I would note that their interests 
regarding Egypt differ from ours.
    Senator Kaine. Absolutely.
    Dr. Dunne. Even my fellow panelists who are against 
suspension of aid have been raising the democracy, human 
rights, civil society, free media, rights of all citizens, 
including Christians. These interests of ours that the United 
States has, those allies generally do not take an interest in 
such issues.
    Senator Kaine. I would not characterize it as not taking 
interest in those issues. I think that goes too far. That is my 
own editorial comment.
    And I agree. We have to make the right decision for our 
interests, but the interests of close allies that we have, who 
admittedly look at it differently. One of the reasons they look 
at it differently is they are in the neighborhood, and we are 
many, many time zones away. The perceptions of our close allies 
are a factor in trying to reach the right decision in terms of 
our interests.
    Ambassador Kurtzer.
    Ambassador Kurtzer. The answer to your question is ``Yes.'' 
I would simply go beyond it to say, look, the challenge we have 
now is we want to promote democracy; we want to maintain our 
significant interests; we want to maintain the constancy of our 
relationship. And sometimes these things are going to come into 
contradiction with one another.
    But there is a fourth element, which goes to the heart of 
your question, Senator, and I agree with it fully. In some 
respects, if Egypt gets it right this time, and if we get it 
right this time, Egypt can be the model for democratic change 
in the region that people have been talking about for 2 years.
    Right now, it is not that model, because it has not yet 
found its footing. It does not even know where it is heading 
and how it is going to build this democratic culture, 
democratic institutions, and so forth.
    So, yes, the region is going to look at this carefully. The 
constancy of our relationship is important. And if we get it 
right, 
the payoff regionally, not just in Egypt, is also going to be 
quite important.
    Senator Kaine. On this discussion about trying to get it 
right, I want to pursue some questions that Senator Johnson was 
raising earlier, trying to have a better understanding of the 
character of the internal political dynamic. One of the things 
that was so obvious and inspiring about the initial protests 
that toppled the previous government was the significant 
participation of young people and a significant number of what 
I would think of, what I would characterize as, sort of secular 
oppositionists. So much of the discussion that we have had 
today in the media is about the military and the Muslim 
Brotherhood.
    Dr. Dunne has pointed out that there are Islamists to the 
right of the Muslim Brotherhood. I guess I do not know if you 
call it right or left. More Islamic than the Muslim 
Brotherhood.
    But what about the youth movement and secular opposition 
movement? Is that still vibrant? Have they been as active in 
recent protests as they were in the original protests in Tahrir 
Square? Talk to us a little bit about that segment of society, 
which I gathered from all your answers is somewhat unorganized. 
They have not been able to unify under a particular banner. But 
knowing the strength of their passions and their numbers might 
tell us something important as well.
    Ambassador Ross. Well, they have not gone away. In fact, I 
think they were the key to the movement, the rebellion 
movement, the organization of the petitions. This was done, 
again, by a very small number of young people who focused on 
what was their recourse.
    When someone refers to this as being a popular uprising, it 
was because there was a perception there was not an alternative 
out there. There was not any other option.
    There still is the problem that there is not the kind of 
coherence to this. There is not an unmistakable political 
platform. There is not an unmistakable political agenda. There 
is not an organization that is geared toward having a political 
program.
    And that is one of the things that is so critical. It is 
one of the reasons I think some of us put the focus on building 
civil society organizations and allowing NGOs to function, 
precisely so that you can take what is this impulse that knows 
what it does not want and begin to channel it into something 
much more constructive in terms of what they do want.
    Dr. Dunne. Yes, Senator, I think the secular part of the 
political spectrum really has been revitalized in the last few 
months, even well before June 30. They were looking toward 
parliamentary elections before that, and they realized that 
they had to do a much better job than they have done in the 
past in organizing politically, in order to compete with the 
Brotherhood primarily and the Salafis. So that was already 
happening.
    I do not know if there is ever going to be any single 
secular political party. There probably is not, because there 
really are differences among them. There are liberals. There 
are leftists. There are revolutionaries. And they are not 
necessarily all going to be able to come together in one 
political force. But they certainly could coalesce into two or 
three more viable parties.
    There is a difference among them right now regarding the 
Brotherhood. There are those within the secular opposition who 
say the Brotherhood has to be included somehow or we are in for 
trouble. And there are others who are just happy to see their 
rivals decimated, however it happens, and hope to reap 
political advantage during the next elections because of that.
    Ambassador Kurtzer. Senator, we have been lamenting during 
this hearing the absence of civil society. I would say it is 
just the opposite. What we have seen for 2 years is the face of 
the Egyptian civil society, and it is very exciting. You have 
millions of people ready to participate in politics and to try 
to effect change.
    Now, as we all know, they do not have a positive agenda 
yet. They are not well-organized. They are not quite coherent 
with respect to what they want proactively.
    But the raw material for building that civil society is now 
manifest. We now know what it looks like.
    I would also add that even within the Muslim Brotherhood, 
there is more pluralism than is suggested in what we see in the 
press. When you read Muslim Brotherhood Web sites, there is 
debate going on between the older generation and the younger 
generation, between those who want to open up the movement more 
and those who want to keep it the way it was.
    So there are a lot of these things going on in this 
laboratory of change, which makes this a very exciting time in 
Egypt.
    Senator Kaine. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Paul.
    Senator Paul. I want to thank the panel for coming today, 
and expressing your opinions.
    I would like to know a fairly direct response on whether or 
not you think the military takeover in Egypt was a coup or not 
a coup.
    Ambassador Ross. A legal definition, I would say it is 
pretty hard to say it is not a coup.
    Senator Paul. Okay.
    Dr. Dunne. Yes, Senator, I believe it was coup. It had a 
lot of popular support, but that is often the case with 
military coups. That is not unique to this case.
    Ambassador Kurtzer. Well, just so we have one point of 
difference, I would hesitate to call it a coup, because the 
military has not taken power. They continue to stand behind the 
seat of power, but they have made it clear through the roadmap 
that they issued and their actions since then that they want to 
see the restoration of the civilian government.
    Senator Paul. Well, the reason that this is important is 
because our law says that when a coup occurs, the aid ends. So 
we can debate whether it is good idea to end, and you are 
welcome to have opinions on whether it is good idea to have aid 
or not to have aid, but the law is the law. And if we decide 
that we are above the law, it is very hard for us to be 
preaching to the rest of the world about having the rule of 
law.
    So I think this seriously undermines our standing in the 
world, and it seriously goes against anyone who claims that 
they are for the rule of law.
    But I would go one step further. Even if you say this is 
not a coup because there is not a general currently running it, 
I think that is semantics, and really not going to the point of 
this, because our law says, basically, if the military had a 
substantial involvement in replacing a democratically elected 
government, so it does not matter, according to our law, 
whether there is a general in charge or not.
    But putting a President who has been elected under house 
arrest, we do not know where some of these people are. I mean, 
this is the definition of the kind of thing that we are 
supposedly opposed to.
    And I was no great fan of the Muslim Brotherhood. I was not 
for aiding the Muslim Brotherhood, either. But the thing is, if 
we are not going to obey the law, if we are simply going to say 
that we bring a panel before us that says aid is a good idea, 
realize that if you are telling us that the aid should 
continue, you are telling us to flout the law. You are telling 
us that the law is not important, and that basically we can 
decide the benefits or the detriments of whether or not to 
continue aid are more important than the law.
    And to my mind, if you are, you are rising to a level where 
you say you are above everything we stand for. If the President 
is not going to adhere to the rule of law, if he is going to 
say he creates the law, we so damage our standing in the world, 
we so damage what we stand for, that we have no moral basis for 
going around the world or telling anybody anything.
    There is a huge argument we can have about whether it is a 
good idea or a bad idea. I personally think that if we think we 
are buying the goodwill of the Egyptian people when they are 
being doused with tear gas that was made in Pennsylvania, paid 
for with U.S. taxpayer dollars, I do not think they are jumping 
up and down and saying ``Yay, America.''
    So I would say that I think foreign aid has often gone to 
criminals. It has often gone to plutocrats. It has often gone 
to dictators. It has often gone into the pockets of one 
plutocrat who then goes and fills up a Louis Vuitton bag full 
of cash and goes and spends it in Paris. And it is obscene. And 
I think for us to be defending aid to Egypt when we have given 
$60 billion of it to the Mubarak family who are basically 
thieves and stole it, and used it for their own personal 
aggrandizement--you look at Mobutu and his family. You look at 
the history of foreign aid. You look at the history of thievery 
and thuggery, and people who have taken the money and used it 
for their own personal benefit. And then we are going to come 
here and say one versus the other?
    I truly fear that even out of the military establishment, 
which everybody says is so much more pro-Western, that what we 
are going to get out of the military establishment, what we 
could get, is someone who rises up and becomes a strong man and 
says, I will correct this chaos in Egypt, and I will do it, but 
I will do it through the strength of being a general that will 
do whatever I want. And maybe whatever I want means reclaiming 
lands that we say Israel has taken from us. Or that maybe 
someday our weapons are used.
    But I think it is absolutely chaos over there, to be 
sending planes and tanks into this chaos.
    But above and beyond all, the debate really is, are we 
going to obey the law? I do not think really other than some 
objections, there are serious people out there saying this is 
not a coup. To define this as not a coup is not to have an 
intelligent debate, from my point of view.
    But I would love to see or hear if there is a justification 
for breaking the law, because if this is a coup, and you want 
to continue aid, you are basically arguing for breaking the 
law.
    Ambassador Kurtzer. Senator, since I was the one who 
refused to call it a coup, let me take the first crack at 
responding. And I would respond to two points you made.
    First, on the question of foreign aid, which is a different 
issue from what we are talking about, perhaps this requires a 
longer discussion, but I think we can be proud of the billions 
of dollars of aid that we provide to Egypt, both military and 
economic. We helped build a country that was largely broken----
    Senator Paul. Including what Mubarak stole.
    Ambassador Kurtzer. I think it has yet to be determined 
that Mubarak stole our money.
    Senator Paul. And how would you respond to the fact that 
El-Sisi, who is from the military, is the Assistant Prime 
Minister or the Deputy Prime Minister? That to me sounds like 
the military is involved in the government.
    Ambassador Kurtzer. That is the second part of the 
question.
    On the first part, I would be happy to discuss further what 
our aid did accomplish over the years. And it accomplished a 
great deal.
    On the second part of the question, the system that existed 
under Morsi provided no outlet, no legal outlets, to remove the 
President, because the court had suspended the people's 
assembly, their Parliament, which would have been the avenue to 
pursue a rule of law methodology for removing the President.
    And, therefore, when the military did intervene, it was 
intervening on the basis of what it defined as a popular will. 
The 10, 15, 20 million people who had not only signed a 
petition but who had put their address down and their identity 
card number, who had gone on the streets and who had make clear 
that they wanted to see a change.
    Now, again, and I do not think it is a----
    Senator Paul. You know, hundreds of thousands of people 
have signed petitions against Obamacare. Do you think if the 
generals take over the White House and we get rid of Obamacare 
through force, would that be a coup?
    Ambassador Kurtzer. Senator, fortunately, we have a system 
which allows for a rule of law methodology for holding a 
President accountable. And we have used that in our history.
    Egypt during the year of Morsi's governance did not have 
that methodology. And that is why this is a question mark. I do 
not think it is a black and white question, frankly.
    The Chairman. Thank you very much.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    My own view is that the Obama administration is taking 
carefully calibrated actions to elicit specific, narrow 
responses in Egypt from all sides. And the F-16 decision is 
part of that, as is every other part of their strategy. And I 
think that they are handling a very volatile situation in the 
best way that they can. And I think we all understand that.
    I was in Egypt last March, having left Libya and Tunisia. 
In each country, they were drafting their constitution. And in 
each country, there was a Muslim Brotherhood principally 
responsible in the leadership role for drafting the 
constitution. And each one of them was clearly trying to draft 
a constitution that reflected their religious values, but also 
the history of their country.
    And so there is not a one-size-fits-all, in terms of Muslim 
Brotherhoods, because they are different in each country 
because they each have a different history.
    My question to you is this, as they begin to draft a new 
constitution, what is it that you would like to see included in 
this constitution that was not in the last constitution? What 
is it that you believe could be a consensus amongst those that 
were protesting that could be agreed upon, that would be 
included in this constitution? Because I think the words in the 
constitution are ultimately going to logically determine the 
outcome, whether or not all parties feel that something fair 
and something that is reflective of Egypt of today was included 
in the constitution.
    So, do any of you wish to tell me what you would like to 
see in the constitution, or what you believe the consensus is 
amongst those who are protesting?
    Ambassador Ross. I will make a quick comment. I think the 
key is going to be the respect for minority rights, and for 
women's rights, and how that is expressed.
    The former constitution had different shadings in it that I 
think raised questions in both of those areas.
    I just make one other quick response to Senator Paul----
    Senator Markey. If I may, let me just move forward on my 
question, if I may.
    Dr. Dunne. I would say there are three points to be looking 
for as to whether this is a constitution being developed that 
would help create a solid democracy in Egypt.
    One of them, certainly, is protection for the rights of all 
citizens, equal rights for all citizens, lack of discrimination 
and not different rights in the constitution for different 
kinds of citizens, women and men, Muslim and non-Muslim, et 
cetera. So that is one thing to look for.
    Another thing that was absent in the constitution that the 
Brotherhood passed was a rebalancing of powers among the 
executive, legislative, and judicial branches. The executive 
has been very powerful in Egypt, and that was something that 
Egyptians were demanding, that the legislature, in particular, 
should have more power, and that the independence of the 
judiciary should be protected.
    Senator Markey. Are you optimistic that that will be 
included in the new constitution?
    Dr. Dunne. That is really not clear. You know, it is really 
not clear. They have a committee to rewrite the constitution. 
There is not much guidance in terms of what they are going to 
do.
    Senator Markey. Ambassador Kurtzer, please.
    Ambassador Kurtzer. Yes, I would agree with what Dr. Dunne 
said in both respects and just add one little twist, and that 
is that the provisions that need to be strengthened with regard 
to the protection of minorities and women and so forth also 
have to be balanced off against the way that this new 
constitution defines Islam as a basis for legislation.
    It will say that, but in the previous constitution, it said 
it in a way that suggested to people that there was going be a 
long-term process of Islamisation, which I think made people 
nervous.
    Senator Markey. So do you think there is a consensus 
amongst those who were protesting that that is something that 
has to be clarified, so that there is not kind of an 
incremental, over time, movement toward that Islamisation?
    Ambassador Kurtzer. I would think for sure the masses that 
came out on the streets are unified around this idea. Whether 
or not they can translate that incoherent political will into 
the politics of reforming the constitution remains to be seen.
    Senator Markey. And it could in fact elicit a 
counterrevolution, if it is included in the constitution? Is 
that your opinion?
    Ambassador Kurtzer. Yes. It could.
    Senator Markey. Do you agree with that, Mr. Ross?
    Ambassador Ross. Yes.
    Senator Markey. A few days ago, the U.N. High Commissioner 
for Human Rights announced that it had requested to send a 
delegation to monitor the situation in Cairo. The Egyptian 
Government claims it has never received such a request.
    Do any of you know what the status is of that request to 
have a monitoring capacity inside of Cairo, looking at these 
human rights issues?
    How do you see the influence of the neighboring countries? 
You have Qatar on the one hand, and you have Saudi Arabia and 
the United Arab Emirates on the other hand. Could you elaborate 
a little bit on this set of countervailing pressures that 
exists from the outside on the results that each seeks to 
achieve?
    Ambassador Ross. Well, there is no doubt that the Saudis, 
the Emirates, and the Kuwaitis have immediately come in to 
provide support for the new government, for the interim 
government, and for what has happened. The fact that they have 
pledged $12 billion, the fact that they have already begun 
providing the assistance, they clearly see this as, from their 
standpoint, a strategic course correction that they want to see 
cemented. They want the new leadership to look effective.
    I think, it is interesting, Qatar had provided a lot of 
money. And the real question is whether or not there is some 
rethinking on Qatar's part. I suspect the greatest influence 
from the region is going to come much more from the Gulf States 
at this point, meaning the Saudis, the Emirates, and the 
Kuwaitis.
    Senator Markey. May I just have a followup, because I have 
30 seconds left? Do you think we can solve these human rights 
problems in Egypt if we do not have the United Nations on site 
to document what is happening, so that it can be an 
evidentiary-based discussion that goes on, in terms of who has 
been harmed, who is being prosecuted, persecuted? Is it 
necessary, in your opinion, to have the United Nations in, in 
order to be able to do that work?
    Can we just get a quick answer from each of you, please?
    Dr. Dunne. Senator, on this question, I would say there has 
to be some kind of international engagement, whether it is the 
United Nations or others. Egypt has been quite resistant to 
this. They tend to see this as interference in their internal 
affairs.
    But there really is a real danger of escalating human 
rights abuses in the situation.
    On the regional players, I wanted to add, briefly, Turkey 
is a major player here, and one who I think really has a 
difference with Saudi Arabia and the others, in terms of 
whether the removal of Morsi was a good thing.
    Senator Markey. I just want to get the human rights answer. 
Do we need the United Nations? I think we do, in order to make 
sure there is some referee of what is actually happening.
    Ambassador Kurtzer. Egypt would be well-advised to say yes, 
in order to dispel any doubts about its behavior. We are able, 
through our Embassy, our human rights reports, to do what we 
can. But I think the international legitimacy of the United 
Nations would help Egypt.
    Senator Markey. Mr. Ross.
    Ambassador Ross. I agree with that, both on that and also 
on the issue of elections. You need international observers in 
there.
    Senator Markey. Okay, thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    We have a vote, and you have been very resilient here for 
nearly 2 hours. Just one set of final questions.
    One is, it has been--what?--30 years, almost, since the 
Camp David Accords funded Egypt under Mubarak. That is pretty 
much the time period, right?
    Is what happened to Mubarak a coup?
    Ambassador Ross. We can get into the legal definitions of 
this, and I am not a lawyer, and maybe I answered more quickly 
than I should have on this. I think, from my own standpoint, 
there is a larger set of strategic issues that we have to keep 
in mind when we evaluate these issues. And that is why I said, 
from my standpoint, we need to be able to protect the 
assistance right now.
    Dr. Dunne. Senator, yes; Mubarak was also removed by a coup 
after a popular uprising. But the difference is that he was not 
democratically elected.
    The Chairman. Well, my point is, I find it interesting when 
we pick and choose talking about the rule of law, because if, 
in fact, Mubarak was a coup, then assistance to Egypt at that 
time, based upon the view that it was a coup, would have been 
suspended. And while I understand, Doctor, your comment that he 
was not democratic, for 30 years, we assisted an undemocratic 
regime.
    So it is a little difficult to split the hairs on that one, 
when, in fact, you have national security interests that I 
think are prevailing.
    But I just think about when we choose to say that the rule 
of law should be observed and when not. And so it depends on 
what your strict definition is, at the end of the day.
    Let me ask you this, what could be the offer of 
reconciliation? We talked about the importance of having an 
all-inclusive Egypt, and Egypt for all, what could be an offer 
of reconciliation that would bring the Muslim Brotherhood back 
as part of an Egypt for all?
    Ambassador Kurtzer. I think there are two issues that are 
paramount, and one that is probably not doable.
    Number one, there would have to be an end to the arrests 
and incarceration of those in the Brotherhood who have been 
arrested since July 3. Those who have really broken the law 
should stand trial. But in most cases, these have been 
preventive arrests.
    Number two, inclusion of Muslim Brotherhood representatives 
in the interim government, make room for them in the 
administration.
    The one issue that is probably not doable is the 
restoration of Mr. Morsi as President, which has been a 
precondition of the Muslim Brotherhood. So they are going to 
have to climb down the tree on that issue.
    But perhaps the other issues might be incentive enough to 
enter into a dialogue.
    The Chairman. Any other thoughts on that?
    And finally, is it possible to envision an Egypt for all 
when you have this tension between secularism and Islamists who 
seem to want--at least Morsi when he was in power--seem to want 
to have the country move in a direction that is different than 
what a greater part, obviously, as a result of this uprising of 
civil society wanted to see? How do you reconcile in the effort 
to have an Egypt for all with those who want to see embedded in 
the law elements of a religious point of view and those of the 
society who want to keep religion as maybe as we consider it in 
the United States, separate and apart from its government.
    How do you reconcile that?
    Ambassador Kurtzer. Senator, one of the things I did as 
Ambassador was to invite people involved in our civil rights 
movement to do lectures in Egypt. And the reason was to help 
Egyptians understand that you have to start somewhere on the 
path to real democratic governance, but it may take time and it 
may take a very hard effort.
    So the answer to your question is ``Yes,'' it is possible 
to envisage an Egypt in which secular tensions are abated, the 
rule of law is encompassed. But I think it is going to take 
some time.
    As I said earlier, I think we are at the early stages of a 
prolonged process, and it is going to require not only their 
patience, but also our patience as a friend of that country.
    Ambassador Ross. I agree with what Dan said. It takes time 
also to build what one might describe as a political culture of 
mutual adjustment. And they are going through a period right 
now where there is such a high degree of polarization that it 
is very difficult to adopt that kind of a mindset.
    But they also have an interest in the future of their 
country and it seems to me that if you can build a process that 
is geared toward reconciliation, over time, this is something 
that can begin to emerge.
    Dr. Dunne. Senator, I think the issue of the role of 
religion in politics and public life is something that 
Egyptians are going to have to work through. In the Mubarak 
era, it was very, very tightly controlled, and Islamists could 
participate a bit politically, but in a very narrow way.
    And then after Mubarak, the floodgates were wide open and 
they allowed religious slogans to be used in campaigns, and 
probably went too far to the other direction.
    The Egyptians themselves will have to work out some sort of 
arrangement on this that everybody can live with and where 
there can be fair competition.
    The Chairman. Well, thank you all for very in-depth 
analysis of this major issue and challenge for the United 
States. I think you have given us a lot of insight.
    The record will remain open until the close of business on 
Friday.
    And this hearing is adjourned.
    [Whereupon, at 12:43 p.m., the hearing was adjourned.]



                                  <all>

</pre></body></html>
